<html>
<title> - CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 108-303]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-303
 
 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2003

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE
91-721 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Current and Future Worldwide Threats to the National Security of the 
                             United States

                           february 12, 2003

                                                                   Page

Tenet, Hon. George J., Director of Central Intelligence..........     6
Jacoby, Vice Adm. Lowell E., USN, Director, Defense Intelligence 
  Agency.........................................................    21

                                 (iii)


 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:43 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Collins, Ensign, Talent, Graham, Cornyn, 
Levin, Kennedy, Byrd, Reed, Akaka, Ben Nelson, Dayton, Bayh, 
Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Cindy Pearson, assistant chief clerk and security 
manager.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Brian R. Green, professional staff 
member; Mary Alice A. Hayward, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Lynn F. Rusten, professional staff member; and 
Scott W. Stucky, general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Kenneth M. Crosswait, professional staff member; 
Evelyn N. Farkas, professional staff member; Richard W. 
Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Maren R. Leed, professional staff 
member; Christina D. Still, professional staff member.
    Staff assistants present: Michael N. Berger, Leah C. 
Brewer, Andrew Kent, Jennifer Key, Sara R. Mareno, and Nicholas 
W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; James Beauchamp, assistant to Senator Roberts; 
Jayson Roehl, assistant to Senator Allard; James P. Dohoney, 
Jr., assistant to Senator Collins; Sara Grisier, assistant to 
Senator Ensign; Lindsey R. Neas, assistant to Senator Talent; 
James W. Irwin, assistant to Senator Chambliss; Aleix Jarvis 
and Stephen Flippin, assistants to Senator Graham; Henry J. 
Steenstra, assistant to Senator Dole; Sharon L. Waxman and 
Mieke Y. Eoyang, assistants to Senator Kennedy; Terrence E. 
Sauvain and Erik Raven, assistants to Senator Byrd; Elizabeth 
King, assistant to Senator Reed; Davelyn Noelani Kalipi and 
Richard Kessler, assistants to Senator Akaka; Douglas Bush, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Rashid Hallaway, assistant to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; Terri Glaze, 
assistant to Senator Pryor.

            OPENING STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts [presiding]. The committee will come to 
order. Senator Warner, our distinguished chairman, is 
temporarily detained. The committee meets today to receive 
testimony from George Tenet, the Director of Central 
Intelligence (DCI), and Vice Admiral Jacoby, who is the 
Director of the Defense Intelligence Agency (DIA), on current 
and future worldwide threats to the United States and national 
security. On behalf of Senator Warner, I want to welcome our 
two distinguished witnesses. Their testimony is the foundation 
for the committee's actions about the types of military forces 
and military capabilities our Nation needs to detect and deter 
and, if necessary, defeat those threats.
    The chairman, in his statement, said he wanted to take a 
moment to acknowledge Vice Admiral Jacoby on what is his first 
appearance before our committee in his new capacity as the 
Director of the DIA. The Admiral is no stranger to the 
committee, having provided many briefings and updates to the 
committee while he served as the J-2 on the Joint Staff for the 
past 3 years. Admiral, you did a great job in that position. We 
congratulate you as you fleet up, I think that is the word to 
this new challenge during these very challenging times. As 
chairman of the Intelligence Committee, I can say we really 
appreciated your testimony yesterday and I appreciated your 
courtesy when Senator DeWine and I visited the DIA and received 
your briefing several weeks ago.
    The circumstances of this hearing are quite compelling. Our 
country was brutally attacked by terrorists 17 months ago. Our 
military is engaged in an all-out global war to defeat 
terrorism. The threat of war looms in Iraq. Nuclear tensions 
are on the rise as testified yesterday by Mr. Tenet, also on 
the Korean peninsula; and the threat of another catastrophic 
attack against our Nation and our interests has recently 
increased.
    I am going to simply put the rest of the chairman's 
statement in the record without objection.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets today to receive testimony from George Tenet, 
Director of Central Intelligence, and Vice Admiral Jacoby, Director, 
Defense Intelligence Agency, on current and future worldwide threats to 
U.S. national security.
    I welcome our two distinguished witnesses. Their testimony on the 
wide range of threats facing our Nation is the foundation for the 
committee's deliberations about the types of military forces and 
military capabilities our Nation needs to detect, deter and--if 
necessary--defeat those who threaten us.
    I want to take a moment to acknowledge Vice Admiral Jake Jacoby in 
what is his first appearance before our committee in his new capacity 
as the Director of DIA. Admiral Jacoby is no stranger to the committee, 
having provided many briefings and updates to the committee while he 
served as the J2 on the Joint Staff for the past 3 years. You did a 
great job in that position and we congratulate you as you ``fleet up'' 
to this new challenge, during  very challenging times. 
    The circumstances of this hearing are quite compelling. Our country 
was brutally attacked by terrorists 17 months ago; our military is 
engaged in an all-out global war to defeat terrorism; the threat of war 
looms in Iraq; nuclear tensions are on the rise on the Korean 
peninsula; and, the threat of another catastrophic attack against our 
Nation and our interests has recently increased.
    For the past several years, Director Tenet has been quite prophetic 
in warning us of ``greater risk'' and ``vulnerability to surprise 
attack, even at home.'' Your recent assessments that al Qaeda remains a 
significant risk and is planning imminent attacks on the United States 
and its interests is quite sobering.
    As U.S. forces pour into the Persian Gulf region, we look to both 
of you for your assessments of the dangers facing these brave men and 
women if conflict cannot be avoided, as well as the dangers facing the 
world if the international community fails to act to disarm Saddam 
Hussein.
    In addition, although much progress has been made, Afghanistan 
remains a dangerous place. We are anxious to hear your assessment of 
the situation there and the prospects for the future.
    The global war on terrorism is not just confined to Afghanistan and 
the Middle East. Your assessment of the overall magnitude of this 
threat and the progress that has been made thus far to defeat this 
danger will greatly assist our understanding of the scope of this 
problem.
    Even though we are focused on current and potential military 
conflicts, we must not lose sight of the other, non-traditional threats 
that abound in this uncertain world--the proliferation of weapons of 
mass destruction and missile technologies, information warfare, ethnic 
conflict, and overall global trends. Our security demands vigilance in 
these areas, as well. We look forward to your frank assessments of the 
many wide ranging threats to our national security.
    There has been much discussion about what went wrong on September 
11. Clearly, changes need to be made in the way we process, analyze, 
and disseminate intelligence to ensure the right people have the right 
information at the right time. We are anxious to hear from both of you 
on structural, technological, and cultural changes you believe are 
required to better posture our intelligence services for future 
success. We look forward to your insights and will rely greatly on your 
judgment.
    We depend on you, gentlemen, to guide us as we make critical 
decisions in the weeks and months ahead about the capabilities, 
resources, and policies our Nation needs to defend itself. Success in 
your respective missions is essential to our national security--both at 
home and abroad--and the future readiness of our Armed Forces.
    Thank you for your service to our country. We welcome your 
testimony.

    Senator Roberts. I yield at this time to the distinguished 
vice chairman, ranking member, shotgun writer, and defender of 
freedom in Michigan, Senator Levin, for any comments he may 
wish to make.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. As we 
meet today to receive testimony from the United States 
intelligence community on worldwide threats to our national 
security, it is no exaggeration to say that the current threats 
to the United States are serious and some of them are imminent. 
Osama bin Laden is still at large and the al Qaeda network, 
though weakened and deprived of its safe haven in Afghanistan, 
has just over the last several months attacked innocent 
civilians in Bali and Tunisia and U.S. Service members and 
civilians in Kuwait and Jordan. Late last month, U.S. Coalition 
Forces fought the biggest battle in Afghanistan since Operation 
Anaconda last spring.
    Our intelligence and law enforcement agencies are working 
with allied countries to thwart further attacks in the United 
States and abroad, but the fact is that we remain vulnerable to 
al Qaeda and other terrorists. Indeed, the United States is at 
alert ``orange'' today, the second-highest level of alert in 
our system. Our military forces are also at heightened force 
protection levels worldwide. We remain vulnerable to attack 
using conventional explosives, to say nothing of weapons of 
mass destruction. Earlier this week, Federal officials even 
suggested that the public should make preparations for a 
terrorist attack involving chemical, biological, or 
radiological weapons.
    Meanwhile, North Korea, a country that possesses weapons of 
mass destruction and has rejected the international nuclear 
inspectors, has declared it has resumed operations at its 
plutonium facilities. North Korea is on the brink of becoming 
an undisputed nuclear power. By refusing to open a direct 
dialogue with North Korea, even though South Korea wants us to 
do just that, we are stoking North Korea's paranoia and that 
could lead to additional provocative and possibly irreversible 
action on their part.
    Iran's admission that it has been mining uranium 
underscores our concern that its nuclear energy program is 
intended for nuclear weapons. Iraq continues to flout the 
international community, not assisting the U.N. weapons 
inspectors to find and/or account for chemical and biological 
weapons programs. Disagreement over how to address the Iraqi 
threat has divided the U.N. Security Council. Moreover, an 
Islamist extremist terrorist group operating in northeast Iraq 
beyond the control of Saddam Hussein has set up a poison 
producing factory. Surely there can be little doubt that Osama 
bin Laden would like to see the United States and Britain 
attack Iraq. Keeping the world community together through the 
U.N. Security Council is exactly what Osama bin Laden doesn't 
want to see.
    All of us want Saddam Hussein to be disarmed. The best way 
to accomplish the goal of disarming Saddam Hussein without war 
is if the United Nations speaks with one voice relative to 
Iraq. I also believe that if military force is used, the best 
way of reducing both short-term risks, including the risks to 
the United States and Coalition Forces, and the long-term 
risks, including the risk of terrorist attacks on our interests 
throughout the world, is if the United Nations specifically 
authorizes the use of military force.
    That is the bottom line for me. The best way of increasing 
any chance of disarming Saddam Hussein without war and of 
minimizing casualties in future attacks on the United States if 
war does ensue is if the United Nations acts together in the 
Security Council relative to Iraq. Supporting U.N. inspections 
is an essential step if we are going to keep the Security 
Council together. We can support those U.N. inspections by 
sharing the balance of our information about suspect sites, by 
quickly getting U-2 aircraft in the air over Iraq, with or 
without Saddam Hussein's approval, and by giving the inspectors 
the time they need to do their work as long as the inspections 
are unimpeded.
    I disagree with those, including high officials in our 
Government, who say that U.N. inspections are useless. We heard 
that before the inspections began. We heard it from Dr. Rice at 
the White House last week. I am astounded that some of those 
high officials have gone so far as to refer in a derogatory way 
to the ``so-called'' U.N. inspectors. If these inspections are 
useless unless they have Iraqi assistance in pointing out where 
Iraq has hidden or destroyed weapons of mass destruction, why 
are we sharing any intelligence at all with the inspectors? Why 
are we apparently finally implementing U-2 flights to support 
the inspectors? It is one thing to be realistic about the 
limitations of the U.N. inspections and not have too high hopes 
about what they can produce. It is another thing to denigrate 
or prejudge their value, be dismissive and disdainful about the 
beliefs of others on the U.N. Security Council about their 
value, and to be cavalier about the facts relative to those 
inspections.
    Referring to being cavalier about facts brings me to my 
next point, the sharing of intelligence information in our 
possession with the U.N. inspectors. This is an issue that I 
have followed very closely. In the last several weeks at my 
request, the CIA has been providing me with classified details 
of how much information we have been sharing with the U.N. 
inspectors in Iraq. We just began sharing specific information 
in early January, according to Secretary Powell, as quoted in 
The Washington Post on January 9. While I can't go into those 
classified details in an open hearing, I can say that the 
information the CIA has provided me made it very clear that we 
had shared information only on a small percentage of the 
suspect sites in Iraq, that we had not shared information on 
the majority of the suspect sites which were confirmed by CIA 
staff. At yesterday's hearing of the Intelligence Committee, I 
was astounded when Director Tenet repeatedly and firmly told us 
that we have now shared with U.N. inspectors information about 
every site where we have credible intelligence. Then last 
night, in Director Tenet's presence and in the presence of 
Senator Warner, his staff acknowledged that we still have 
useful information that we have not shared with the inspectors, 
which is the opposite of what Director Tenet told the 
Intelligence Committee yesterday in open session. If we have 
not shared yet all the useful information that we have with the 
U.N. inspectors, that would run counter to the administration's 
position that the time for inspections is over.
    When President Bush addressed the U.N. General Assembly on 
September 12 of last year, he said, ``We want the United 
Nations to be effective and respected and successful.'' Well, 
we have some responsibility to help the United Nations achieve 
that. Saying to other countries, including allies, if you do 
not see it our way you must have some ulterior motive, doesn't 
help. While a number of heads of state and governments have 
called for the U.N. Security Council to take the necessary and 
appropriate action in response to Iraq's continuing threat to 
international peace and security, and some have pledged to 
contribute military forces to that effort, others believe that 
we should give the inspections the strength and the time they 
need to finish the job.
    All groups agree on the necessity of disarming Iraq. Rather 
than following a course that divides the United Nations and 
separates us from some of our closest allies, we should at 
least fairly consider courses of action that would unite the 
world community against Iraq.
    Mr. Chairman, I look forward to hearing more today about 
the capabilities that al Qaeda, North Korea, and Iraq possess. 
I hope we also hear about the risks that we might face to our 
homeland and our military and the Middle East, Afghanistan, and 
worldwide in taking action without U.N. authority in Iraq, in 
not engaging North Korea in serious dialogue and in not 
fighting al Qaeda with all our assets whenever and wherever we 
find them. Thank you.
    Senator Roberts. The procedure recommended by Chairman 
Warner is to make available 6 minutes that will be provided to 
each Senator. Each Senator can then make an opening statement 
at this particular time. In the interest of time, however, we 
do want to get to Director Tenet and to the Admiral. Mr. Tenet, 
would you proceed, please.

    STATEMENT OF HON. GEORGE J. TENET, DIRECTOR OF CENTRAL 
                          INTELLIGENCE

    Mr. Tenet. Yes. Thank you, Mr. Chairman. Last year, in the 
wake of the September 11 attack on our country, I focused my 
remarks on the clear and present danger posed by terrorists who 
seek to destroy who we are and what we stand for. The national 
security environment that exists today is significantly more 
complex than that of a year ago. I can tell you that the threat 
from al Qaeda remains, even though we have made important 
strides in the war against terrorism. Secretary of State Powell 
clearly outlined last week the continuing threats posed by 
Iraq's weapons of mass destruction, its efforts to deceive U.N. 
inspectors, and the safe haven that Baghdad has allowed for 
terrorists in Iraq. North Korea's recent admission that it has 
a highly-enriched uranium program, intends to end the freeze on 
its plutonium production facilities, and intends to withdraw 
from the nonproliferation treaty raised serious new challenges 
for the region and the world.
    At the same time, we cannot lose sight of those national 
security challenges that, while not occupying space on the 
front pages, demand a constant level of scrutiny. Challenges 
such as the world's vast stretches of ungoverned areas, lawless 
zones, veritable no man's lands, like some areas along the 
Afghan-Pakistani border where extremist movements find shelter 
and can win breathing space to grow. Challenges such as the 
numbers of societies and peoples excluded from the benefits of 
an expanding global economy, where the daily lot is hunger, 
disease, and displacement, and that produce large populations 
of disaffected youth who are prime recruits for our extremist 
foes.
    As you have talked about, Mr. Chairman, yesterday and 
today, the United States Government last week raised the 
terrorist threat level. We did so because of threat reporting 
from multiple sources with strong al Qaeda ties. The 
information we have points to plots aimed at targets on two 
fronts--in the United States and on the Arabian Peninsula. It 
points to plots timed to occur as early as the end of the Hajj, 
which occurs late this week, and it points to plots that could 
include the use of a radiological dispersion device as well as 
poisons and chemicals. The intelligence, as I said yesterday, 
is not idle chatter on the part of terrorists and their 
associates. It is the most specific we have seen and it is 
consistent with both our knowledge of al Qaeda doctrine and our 
knowledge of the plots this network, and particularly its 
senior leadership, has been working on for years.
    The intelligence community is working directly and in real 
time with friendly services overseas and with our law 
enforcement colleagues here at home to disrupt and capture 
specific individuals who may be part of this plot. Our 
information and knowledge is the result of important strides we 
have made since September 11 to enhance our counterterrorism 
capabilities and to share with our law enforcement colleagues, 
and they with us, the results of disciplined operations, 
collection, and analysis of events inside the United States and 
overseas.
    Raising the threat level is important to our being as 
disruptive as possible. The enhanced security that results from 
a higher level of threat can buy us more time to operate 
against the individuals who are plotting to do us harm. 
Heightened vigilance generates additional information and 
leads.
    This latest reporting underscores the threat that al Qaeda 
continues to pose to the United States. The network is 
extensive and adaptable. It will take years of determined 
effort to unravel this and other terrorist networks and stamp 
them out.
    Mr. Chairman, my statement goes on to note what I believe 
are formidable successes that we have had with our law 
enforcement partners over the last 14 or 15 months in 
disrupting this organization. It notes the important role 
Muslim counties continue to play in the war on terrorism, from 
Pakistan to Jordan and Egypt, to the Saudis, to the 
Indonesians, to the Malaysians. We cannot forget Afghanistan 
where the support of the leadership is absolutely essential.
    Mr. Chairman, al Qaeda will try to adapt to changing 
circumstances as it regroups. It will seek a more secure base 
so they can pause from flight and resume planning. We place no 
limitations on our expectations of what the organization may do 
to survive. We see disturbing signs that al Qaeda has 
established a presence in both Iran and Iraq. In addition, we 
are also concerned that al Qaeda continues to find refuge in 
the hinterlands of Pakistan and Afghanistan. Al Qaeda is also 
developing or refining relatively new means of attack including 
the use of surface-to-air missiles, poisons, and air and 
surface and underwater methods to attack maritime targets.
    We know from the events of September 11 that we can never 
again ignore a specific type of country. A country unable to 
control its own borders and internal territory, lacking 
capacity to govern, educate its people or provide fundamental 
social services. Such countries can offer extremists a place to 
congregate in relative safety.
    I told you last year, Mr. Chairman, that bin Laden has a 
sophisticated capability in biological weapons. In Afghanistan, 
al Qaeda succeeded in acquiring both the expertise and 
equipment needed to grow biological agents, including a 
dedicated laboratory in an isolated compound in Kandahar. Last 
year, I also discussed al Qaeda's efforts to obtain nuclear and 
radiological materials as part of an ambitious nuclear agenda. 
One year later, we continue to follow every lead in tracking 
terrorists' efforts to obtain nuclear materials.
    Mr. Chairman, with regard to Iraq, let me quickly 
summarize. Last week, Secretary Powell carefully reviewed for 
the U.N. Security Council the intelligence that we have on 
Iraqi efforts to deceive U.N. inspectors, its programs to 
develop weapons of mass destruction, and its support for 
terrorism.
    I don't plan to go into these matters in detail, but let me 
summarize some key points. Iraq has in place an active effort 
to deceive U.N. inspectors and deny them access. This effort is 
directed by the highest levels of the Iraqi regime. Baghdad has 
given clear instructions to its operational forces to hide 
banned materials in their possession. Iraq's biological weapons 
program includes mobile search and production facilities that 
will be difficult, if not impossible, for the inspectors to 
find. Baghdad began this program in the mid-1990s, during a 
time when U.N. inspectors were in the country. Iraq has 
established a pattern of clandestine procurements designed to 
reconstitute its nuclear weapons program. These procurements 
include and also go well beyond the aluminum tubes that you 
have heard so much about. Iraq has tested unmanned aerial 
vehicles to ranges that far exceed what it declared to the U.N. 
We are concerned that Iraq's Unmanned Aerial Vehicles (UAV) can 
dispense chemical and biological weapons and they can deliver 
such weapons to Iraq's neighbors or even transport them to 
other countries, including the United States. Iraq is harboring 
senior members of a terrorist network led by Abu Musab al-
Zarqawi, a close associate of Osama bin Laden. We know 
Zarqawi's network was behind the poison plots in Europe that I 
discussed earlier as well as the assassination of a U.S. State 
Department employee in Jordan.
    Iraq has, in the past, provided training in document 
forgery and bomb making to al Qaeda. It has also provided 
training in poisons and gases to two al Qaeda associates. One 
of these associates characterized the relationship he forged 
with Iraqi officials as successful. Mr. Chairman, this 
information is based on a solid foundation of intelligence. It 
comes to us from credible and reliable sources. Much of it is 
corroborated by multiple sources and it is consistent with the 
pattern of denial and deception exhibited by Saddam Hussein 
over the past 12 years.
    With regard to proliferation, sir, I will quickly summarize 
by saying we have entered a new world of proliferation. The 
vanguards of this world are knowledgeable nonstate purveyors of 
weapons of mass destruction (WMD) materials and technology. 
Such nonstate outlets are increasingly capable of providing 
technology and equipment that previously could only be supplied 
by countries with established capabilities.
    Demand creates the market. The desire for nuclear weapons 
is on the upsurge. Additional countries may seek to obtain 
nuclear weapons as it becomes clear that their neighbors and 
regional rivals are already doing so. The domino theory of the 
21st century may well be nuclear.
    With regard to North Korea, its recent behavior regarding 
its longstanding nuclear weapons program makes apparent to all 
the dangers Pyongyang poses to its region and to the world. 
This includes developing the capability to enrich uranium, 
ending the freeze on its plutonium production facilities, and 
withdrawing from the Non-Proliferation Treaty (NPT). If, as it 
seems likely, Pyongyang moves to reprocess spent fuel at the 
facilities where it recently abrogated the 1994 International 
Atomic Energy Agency (IAEA)-monitored freeze, we assess it 
could recover sufficient plutonium for several additional 
weapons.
    North Korea also continues to export complete ballistic 
missiles and production capabilities with related raw 
materials, components, and expertise. Profits from these sales 
help Pyongyang to support its missile and other weapons of mass 
destruction development programs, and in turn generate new 
products to offer its customers.
    Indeed, Mr. Chairman, Kim Jong Il's attempt this past year 
to parlay the North's nuclear weapons program into political 
leverage suggests he is trying to negotiate a fundamentally 
different relationship with us, one that implicitly tolerates 
North Korea's nuclear weapons program. Although Kim Jong Il 
presumably calculates the North's aid, trade, and investment 
climate will never improve in the face of U.S. sanctions and 
perceived hostility. He is equally committed to retaining and 
enlarging his nuclear weapons stockpile.
    Mr. Chairman, I want to talk about China. We did not talk 
about that yesterday. China's chosen path to long-term regional 
and global interest runs through economic growth and Chinese 
integration into the global economy. Beijing calculates that as 
China's economic mass increases, so too will the pull of its 
political gravity. To date China's successes have been dramatic 
and disconcerting to some of its neighbors. Despite China's 
rapid growth, it remains vulnerable to economic fluctuations 
that could threaten political and social stability. China is 
increasingly dependent on its external sector to generate rapid 
growth and, without rapid growth, China will fall even further 
behind in job creation.
    The recent Congress of the Communist Party marked a 
leadership transition to a younger political generation but 
also created a potential division of authority at the top; and, 
in light of China's profound policy challenges, an additional 
leadership challenge. The former party chief, Jiang Zemin, who 
was also scheduled to hand over the presidency to his successor 
in both positions, Hu Jintao, is determined to remain in 
charge. He retains the chairmanship of the party's Central 
Military Commission. The next generation of leaders offer 
policy continuity but the current set-up probably guarantees 
tensions among leaders uncertain of their own standing and 
anxious to secure their positions.
    Such tensions may well play out on the issue of Taiwan, the 
matter of greatest volatility in U.S.-China relations. For now, 
the situation appears relatively placid, but recent history 
shows this can change quickly, given the shifting perceptions 
and calculations on both sides. Chinese leaders seem convinced 
that all trends are moving in their favor. Taiwan is heavily 
invested in the mainland, and Chinese military might is 
growing.
    From its perspective, Beijing remains wary of nationalist 
popular sentiment on Taiwan and of our arms sales to and 
military cooperation with Taipei. As for Taiwan's President 
Chen, he may feel constrained by internal political and 
economic problems and by Beijing's charm offensive. As he 
approaches his re-election bid next year, Chen may react by 
reasserting Taiwan's separate identity and expanding its 
international diplomacy.
    In this regard, our greatest concern is China's military 
buildup. Last year marked new high points for unit training and 
weapons integration, all sharply focused on the Taiwan mission, 
and on increasing the costs for any who might intervene in a 
regional Chinese operation. We anticipate no slowdown to this 
trend in the coming year.
    Mr. Chairman, my statement goes on to talk about Russia and 
Iran. I will enter those into the record.
    I want to talk for a minute about South Asia, where I think 
our attention must remain focused. On the Pakistan-India border 
the underlying cause of tension is unchanged, even though 
India's recent military redeployment away from the border 
reduces the danger of imminent war. The cycles of tension 
between India and Pakistan are growing shorter. Pakistan 
continues to support groups that resist India's presence in 
Kashmir in an effort to bring Indians to the negotiating table. 
Indian frustration with the continuing terrorist attacks, most 
of which it attributes to Pakistan, causes New Delhi to reject 
any suggestion that it can resume a dialogue with Islamabad. 
Any dramatic provocation like the 2001 terrorist attack on 
Indian parliament by Kashmir militants runs a very high risk of 
sparking another major military deployment.
    Mr. Chairman, my statement goes through a number of other 
hot spots and transnational issues that I will enter into the 
record with your permission.
    I would note that with regard to Africa, this is a place 
where we do not often pay a lot of attention or enough 
attention to. Sub-Saharan Africa's chronic instability will 
demand our attention. Africa's lack of democratic 
institutionalization combined with pervasive ethnic rifts and 
corruption render most of the 48 countries vulnerable to crisis 
that can be costly in human lives and lost economic growth. The 
Cote d'Ivoire is collapsing, and its collapse will be felt 
throughout the region, where neighboring economies are at risk 
from the fall-off in trade and from refugees fleeing violence.
    [The prepared statement of Mr. Tenet follows:]
               Prepared Statement by Hon. George J. Tenet

DCI'S WORLDWIDE THREAT BRIEFING--THE WORLDWIDE THREAT IN 2003: EVOLVING 
                       DANGERS IN A COMPLEX WORLD


    Mr. Chairman, last year--in the wake of the September 11 attack on 
our country--I focused my remarks on the clear and present danger posed 
by terrorists who seek to destroy who we are and what we stand for. The 
national security environment that exists today is significantly more 
complex than that of a year ago.

        <bullet> I can tell you that the threat from al Qaeda remains, 
        even though we have made important strides in the war against 
        terrorism.
        <bullet> Secretary of State Powell clearly outlined last week 
        the continuing threats posed by Iraq's weapons of mass 
        destruction, its efforts to deceive U.N. inspectors, and the 
        safehaven that Baghdad has allowed for terrorists in Iraq.
        <bullet> North Korea's recent admission that it has a highly-
        enriched uranium program, intends to end the freeze on its 
        plutonium production facilities, and has stated its intention 
        to withdraw from the Nonproliferation Treaty raised serious new 
        challenges for the region and the world.

    At the same time we cannot lose sight of those national security 
challenges that, while not occupying space on the front pages, demand a 
constant level of scrutiny.

        <bullet> Challenges such as the world's vast stretches of 
        ungoverned areas--lawless zones, veritable ``no man's lands'' 
        like some areas along the Afghan-Pakistani border--where 
        extremist movements find shelter and can win the breathing 
        space to grow.
        <bullet> Challenges such as the numbers of societies and 
        peoples excluded from the benefits of an expanding global 
        economy, where the daily lot is hunger, disease, and 
        displacement--and that produce large populations of disaffected 
        youth who are prime recruits for our extremist foes.

Terrorism
    Mr. Chairman, the United States Government last week raised the 
terrorist threat level. We did so because of threat reporting from 
multiple sources with strong al Qaeda ties.
    The information we have points to plots aimed at targets on two 
fronts--in the United States and on the Arabian Peninsula. It points to 
plots timed to occur as early as the end of the Hajj, which occurs late 
this week. It points to plots that could include the use of a 
radiological dispersion device as well as poisons and chemicals.
    The intelligence is not idle chatter on the part of terrorists and 
their associates. It is the most specific we have seen, and it is 
consistent with both our knowledge of al Qaeda doctrine and our 
knowledge of plots this network--and particularly its senior 
leadership--has been working on for years.
    The intelligence community is working directly, and in real time, 
with friendly services overseas and with our law enforcement colleagues 
here at home to disrupt and capture specific individuals who may be 
part of this plot.
    Our information and knowledge is the result of important strides we 
have made since September 11 to enhance our counterterrorism 
capabilities and to share with our law enforcement colleagues--and they 
with us--the results of disciplined operations, collection, and 
analysis of events inside the United States and overseas.
    Raising the threat level is important to our being as disruptive as 
possible. The enhanced security that results from a higher threat level 
can buy us more time to operate against the individuals who are 
plotting to do us harm. Heightened vigilance generates additional 
information and leads.
    This latest reporting underscores the threat that the al Qaeda 
network continues to pose to the United States. The network is 
extensive and adaptable. It will take years of determined effort to 
unravel this and other terrorist networks and stamp them out.
    Mr. Chairman, the intelligence and law enforcement communities 
aggressively continue to prosecute the war on terrorism, and we are 
having success on many fronts. More than one third of the top al Qaeda 
leadership identified before the war has been killed or captured, 
including:

        <bullet> The operations chief for the Persian Gulf area, who 
        planned the bombing of the U.S.S. Cole.
        <bullet> A key planner who was a Muhammad Atta confidant and a 
        conspirator in the September 11 attacks.
        <bullet> A major al Qaeda leader in Yemen and other key 
        operatives and facilitators in the Gulf area and other regions, 
        including South Asia and Southeast Asia.

    The number of rounded-up al Qaeda detainees has now grown to over 
3,000-up from 1,000 or so when I testified last year--and the number of 
countries involved in these captures has almost doubled to more than 
100.

        <bullet> Not everyone arrested was a terrorist. Some have been 
        released. But the worldwide rousting of al Qaeda has definitely 
        disrupted its operations. We've obtained a trove of information 
        we're using to prosecute the hunt still further.

    The coalition against international terrorism is stronger, and we 
are reaping the benefits of unprecedented international cooperation. In 
particular, Muslim governments today better understand the threat al 
Qaeda poses to them and day by day have been increasing their support.

        <bullet> Ever since Pakistan's decision to sever ties with the 
        Taliban--so critical to the success of Operation Enduring 
        Freedom--Islamabad's close cooperation in the war on terrorism 
        has resulted in the capture of key al Qaeda lieutenants and 
        significant disruption of its regional network.
        <bullet> Jordan and Egypt have been courageous leaders in the 
        war on terrorism.
        <bullet> A number of Gulf states like the United Arab Emirates 
        are denying terrorists financial safehaven, making it harder 
        for al Qaeda to funnel funding for operations. Others in the 
        Gulf are beginning to tackle the problem of charities that 
        front for, or fund, terrorism.
        <bullet> The Saudis are providing increasingly important 
        support to our counterterrorism efforts--from arrests to 
        sharing debriefing results.
        <bullet> Southeast Asian countries like Malaysia and Indonesia, 
        with majority Muslim populations, have been active in arresting 
        and detaining terror suspects.
        <bullet> We mustn't forget Afghanistan, where the support of 
        the new leadership is essential.

    Al Qaeda's loss of Afghanistan, the death and capture of key 
personnel, and its year spent mostly on the run have impaired its 
capability, complicated its command and control, and disrupted its 
logistics.
    That said, Mr. Chairman, the continuing threat remains clear. Al 
Qaeda is still dedicated to striking the U.S. homeland, and much of the 
information we've received in the past year revolves around that goal.
    Even without an attack on the U.S. homeland, more than 600 people 
were killed in acts of terror last year--and 200 in al Qaeda-related 
attacks alone. Nineteen were United States citizens.

        <bullet> Al Qaeda or associated groups carried out a successful 
        attack in Tunisia and--since October 2002--attacks in Mombasa, 
        Bali, and Kuwait, and off Yemen against the French oil tanker 
        Limburg. Most of these attacks bore such al Qaeda trademarks as 
        intense surveillance, simultaneous strikes, and suicide-
        delivered bombs.

    Combined U.S. and allied efforts thwarted a number of al Qaeda-
related attacks in the past year, including the European poison plots. 
We identified, monitored, and arrested Jose Padilla, an al Qaeda 
operative who was allegedly planning operations in the United States 
and was seeking to develop a so-called ``dirty bomb.'' Along with 
Moroccan partners we disrupted al Qaeda attacks against U.S. and 
British warships in the straits of Gibraltar.
    Until al Qaeda finds an opportunity for the big attack, it will try 
to maintain its operational tempo by striking ``softer'' targets. What 
I mean by ``softer,'' Mr. Chairman, are simply those targets al Qaeda 
planners may view as less well protected.

        <bullet> Al Qaeda has also sharpened its focus on our Allies in 
        Europe and on operations against Israeli and Jewish targets.

    Al Qaeda will try to adapt to changing circumstances as it 
regroups. It will seek a more secure base area so that it can pause 
from flight and resume planning. We place no limitations on our 
expectations of what al Qaeda might do to survive.
    We see disturbing signs that al Qaeda has established a presence in 
both Iran and Iraq. In addition, we are also concerned that al Qaeda 
continues to find refuge in the hinterlands of Pakistan and 
Afghanistan.
    Al Qaeda is also developing or refining new means of attack, 
including use of surface-to-air missiles, poisons, and air, surface, 
and underwater methods to attack maritime targets.

        <bullet> If given the choice, al Qaeda terrorists will choose 
        attacks that achieve objectives--striking prominent landmarks, 
        inflicting mass casualties, causing economic disruption, 
        rallying support through shows of strength.

    The bottom line here, Mr. Chairman, is that al Qaeda is living in 
the expectation of resuming the offensive.
    We know from the events of September 11 that we can never again 
ignore a specific type of country: a country unable to control its own 
borders and internal territory, lacking the capacity to govern, educate 
its people, or provide fundamental social services. Such countries can, 
however, offer extremists a place to congregate in relative safety.
    Al Qaeda is already a presence in several regions that arouse our 
concern. The Bali attack brought the threat home to Southeast Asia, 
where the emergence of Jemaah Islamiya in Indonesia and elsewhere in 
the region is particularly worrisome.

        <bullet> The Mombasa attack in East Africa highlights the 
        continued vulnerability of western interests and the growing 
        terrorist threat there.

    Although state sponsors of terrorism assume a lower profile today 
than a decade ago, they remain a concern. Iran and Syria continue to 
support the most active Palestinian terrorist groups, HAMAS and the 
Palestine Islamic Jihad. Iran also sponsors Lebanese Hizballah. I'll 
talk about Iraq's support to terrorism in a moment.
    Terrorism directed at U.S. interests goes beyond Middle Eastern or 
religious extremist groups. In our own hemisphere, the Revolutionary 
Armed Forces of Colombia (FARC) has shown a new willingness to inflict 
casualties on U.S. nationals.
    Mr. Chairman, let me briefly turn to a grave concern: the 
determination of terrorists to obtain and deploy weapons of massive 
destructive capability, including nuclear, radiological, chemical, and 
biological devices.
    The overwhelming disparity between U.S. forces and those of any 
potential rival drives terrorist adversaries to the extremes of 
warfare--toward ``the suicide bomber or the nuclear device'' as the 
best ways to confront the United States. Our adversaries see us as 
lacking will and determination when confronted with the prospect of 
massive losses.

        <bullet> Terrorists count on the threat of demoralizing blows 
        to instill massive fear and rally shadowy constituencies to 
        their side.

    We continue to receive information indicating that al Qaeda still 
seeks chemical, biological, radiological, and nuclear weapons. The 
recently disrupted poison plots in the U.K., France, and Spain reflect 
a broad, orchestrated effort by al Qaeda and associated groups to 
attack several targets using toxins and explosives.

        <bullet> These planned attacks involved similar materials, and 
        the implicated operatives had links to one another.

    I told you last year, Mr. Chairman, that bin Laden has a 
sophisticated biological weapons capability. In Afghanistan, al Qaeda 
succeeded in acquiring both the expertise and the equipment needed to 
grow biological agents, including a dedicated laboratory in an isolated 
compound outside of Kandahar.
    Last year, I also discussed al Qaeda's efforts to obtain nuclear 
and radiological materials as part of an ambitious nuclear agenda. One 
year later, we continue to follow every lead in tracking terrorist 
efforts to obtain nuclear materials.

        <bullet> In particular, we continue to follow up on information 
        that al Qaeda seeks to produce or purchase a radiological 
        dispersal device. Construction of such a device is well within 
        al Qaeda capabilities--if it can obtain the radiological 
        material.

Iraq
    Before I move on to the broader world of proliferation, Mr. 
Chairman, I'd like to comment on Iraq. Last week Secretary Powell 
carefully reviewed for the U.N. Security Council the intelligence we 
have on Iraqi efforts to deceive U.N. inspectors, its programs to 
develop weapons of mass destruction, and its support for terrorism. I 
do not plan to go into these matters in detail, but I would like to 
summarize some of the key points.

        <bullet> Iraq has in place an active effort to deceive U.N. 
        inspectors and deny them access. This effort is directed by the 
        highest levels of the Iraqi regime. Baghdad has given clear 
        directions to its operational forces to hide banned materials 
        in their possession.
        <bullet> Iraq's biological weapons program includes mobile 
        research and production facilities that will be difficult, if 
        not impossible, for the inspectors to find. Baghdad began this 
        program in the mid-1990s--during a time when U.N. inspectors 
        were in the country.
        <bullet> Iraq has established a pattern of clandestine 
        procurements designed to reconstitute its nuclear weapons 
        program. These procurements include--but also go well beyond--
        the aluminum tubes that you have heard so much about.
        <bullet> Iraq has recently flight tested missiles that violate 
        the U.N. range limit of 150 kilometers. It is developing 
        missiles with ranges beyond 1,000 kilometers. It retains--in 
        violation of U.N. resolutions--a small number of SCUD missiles 
        that it produced before the Gulf War.
        <bullet> Iraq has tested unmanned aerial vehicles to ranges 
        that far exceed both what it declared to the United Nations and 
        what it is permitted under U.N. resolutions. We are concerned 
        that Iraq's UAVs can dispense chemical and biological weapons 
        and that they can deliver such weapons to Iraq's neighbors or, 
        if transported, to other countries, including the United 
        States.
        <bullet> Iraq is harboring senior members of a terrorist 
        network led by Abu Musab al-Zarqawi, a close associate of Osama 
        bin Laden. We know Zarqawi's network was behind the poison 
        plots in Europe that I discussed earlier as well as the 
        assassination of a U.S. State Department employee in Jordan.
        <bullet> Iraq has in the past provided training in document 
        forgery and bomb-making to al Qaeda. It also provided training 
        in poisons and gasses to two al Qaeda associates; one of these 
        associates characterized the relationship he forged with Iraqi 
        officials as successful.

    Mr. Chairman, this information is based on a solid foundation of 
intelligence. It comes to us from credible and reliable sources. Much 
of it is corroborated by multiple sources. It is consistent with the 
pattern of denial and deception exhibited by Saddam Hussein over the 
past 12 years.

Proliferation
    Mr. Chairman, what I just summarized for you on Iraq's WMD programs 
underscores our broader concerns about proliferation. More has changed 
on nuclear proliferation over the past year than on any other issue. 
For 60 years, weapon-design information and technologies for producing 
fissile material--the key hurdles for nuclear weapons production--have 
been the domain of only a few states. These states, though a variety of 
self-regulating and treaty based regimes, generally limited the spread 
of these data and technologies.
    In my view, we have entered a new world of proliferation. In the 
vanguard of this new world are knowledgeable non-state purveyors of WMD 
materials and technology. Such non-state outlets are increasingly 
capable of providing technology and equipment that previously could 
only be supplied by countries with established capabilities.
    This is taking place side by side with the continued weakening of 
the international nonproliferation consensus. Control regimes like the 
Non-Proliferation Treaty are being battered by developments such as 
North Korea's withdrawal from the NPT and its open repudiation of other 
agreements.

        <bullet> The example of new nuclear states that seem able to 
        deter threats from more powerful states, simply by brandishing 
        nuclear weaponry, will resonate deeply among other countries 
        that want to enter the nuclear weapons club.

    Demand creates the market. The desire for nuclear weapons is on the 
upsurge. Additional countries may decide to seek nuclear weapons as it 
becomes clear their neighbors and regional rivals are already doing so. 
The ``domino theory'' of the 21st century may well be nuclear.

        <bullet> With the assistance of proliferators, a potentially 
        wider range of countries may be able to develop nuclear weapons 
        by ``leapfrogging'' the incremental pace of weapons programs in 
        other countries.

    Let me now briefly review, sector by sector, the range on non-
nuclear proliferation threats.
    In biological warfare (BW) and chemical warfare (CW), maturing 
programs in countries of concern are becoming less reliant on foreign 
suppliers--which complicates our ability to monitor programs via their 
acquisition activities. BW programs have become more technically 
sophisticated as a result of rapid growth in the field of biotechnology 
research and the wide dissemination of this knowledge. Almost anyone 
with limited skills can create BW agents. The rise of such capabilities 
also means we now have to be concerned about a myriad of new agents.

        <bullet> Countries are more and more tightly integrating both 
        their BW and CW production capabilities into apparently 
        legitimate commercial infrastructures, further concealing them 
        from scrutiny.

    The United States and its interests remain at risk from 
increasingly advanced and lethal ballistic and cruise missiles and 
UAVs. In addition to the longstanding threats from Russian and Chinese 
missile forces, the United States faces a near-term Intercontinental 
Ballistic Missile (ICBM) threat from North Korea. Over the next several 
years, we could face a similar threat from Iran and possibly Iraq.

        <bullet> Short- and medium-range missiles already pose a 
        significant threat to U.S. interests, military forces, and 
        allies as emerging missile states increase the range, 
        reliability, and accuracy of the missile systems in their 
        inventories.

    Several countries of concern remain interested in acquiring a land-
attack cruise missile (LACM) capability. By the end of the decade, 
LACMs could pose a serious threat to not only our deployed forces, but 
possibly even the U.S. mainland.
    Mr. Chairman, I turn now to countries of particular concern, 
beginning, as you might expect, with North Korea.
    The recent behavior of North Korea regarding its longstanding 
nuclear weapons program makes apparent to all the dangers Pyongyang 
poses to its region and to the world. This includes developing the 
capability to enrich uranium, ending the freeze on its plutonium 
production facilities, and withdrawing from the Non-Proliferation 
Treaty. If, as seems likely, Pyongyang moves to reprocess spent fuel at 
the facilities where it recently abrogated the 1994 IAEA-monitored 
freeze, we assess it could recover sufficient plutonium for several 
additional weapons.

        <bullet> North Korea also continues to export complete 
        ballistic missiles and production capabilities along with 
        related raw materials, components, and expertise. Profits from 
        these sales help Pyongyang to support its missile and other WMD 
        development programs, and in turn generate new products to 
        offer to its customers.

    Indeed, Mr. Chairman, Kim Jong Il's attempts this past year to 
parlay the North's nuclear weapons program into political leverage 
suggest he is trying to negotiate a fundamentally different 
relationship with Washington--one that implicitly tolerates the North's 
nuclear weapons program.

        <bullet> Although Kim presumably calculates the North's aid, 
        trade, and investment climate will never improve in the face of 
        U.S. sanctions and perceived hostility, he is equally committed 
        to retaining and enlarging his nuclear weapons stockpile.

    Mr. Chairman, I want to mention our renewed concern over Libya's 
interest in WMD. Since the suspension of sanctions against Libya in 
1999, Tripoli has been able to increase its access to dual-use nuclear 
technologies. Qadhafi stated in an Aljazeera interview last year that 
Arabs have ``the right'' to possess weapons of mass destruction 
because, he alleges, Israel has them.

        <bullet> Libya clearly intends to reestablish its offensive 
        chemical weapons capability and has produced at least 100 tons 
        of chemical agents at its Rabta facility, which ostensibly 
        reopened as a pharmaceutical plant in 1995.

    China vowed in November 2000 to refrain from assisting countries 
seeking to develop nuclear-capable ballistic missiles, and last August 
Beijing promulgated new missile-related export controls. Despite such 
steps, Mr. Chairman, Chinese firms remain key suppliers of ballistic- 
and cruise missile-related technologies to Pakistan, Iran, and several 
other countries.

        <bullet> Chinese firms may be backing away from Beijing's 1997 
        bilateral commitment to forego any new nuclear cooperation with 
        Iran. We are monitoring this closely.

    We are also monitoring Russian transfers of technology and 
expertise. Russian entities have cooperated on projects--many of them 
dual-use--that we assess can contribute to BW, CW, nuclear, or 
ballistic- and cruise-missile programs in several countries of concern, 
including Iran. Moscow has, however, reexamined at least some aspects 
of military-technical cooperation with some countries and has cut back 
its sensitive nuclear fuel-cycle assistance to Iran.

        <bullet> We remain alert to the vulnerability of Russian WMD 
        materials and technology to theft or diversion. Russia has the 
        largest inventory of nuclear materials that--unless stored 
        securely--might be fashioned into weapons that threaten U.S. 
        persons, facilities, or interests.

    Iran is continuing to pursue development of a nuclear fuel cycle 
for civil and nuclear weapons purposes. The loss of some Russian 
assistance has impeded this effort. It is also moving toward self-
sufficiency in its biological and chemical weapons programs.

        <bullet> Tehran is seeking to enlist foreign assistance in 
        building entire production plants for commercial chemicals that 
        would also be capable of producing nerve agents and their 
        precursors.

        <bullet> As a supplier, Iran in 2002 pursued new missile-
        related deals with several countries and publicly advertises 
        its artillery rockets, ballistic missiles, and related 
        technologies.

    I should also note, Mr. Chairman, that India and Pakistan continue 
to develop and produce nuclear weapons and the means to deliver them.
China
    I'd like to turn now from the transnational issues of terrorism and 
proliferation to countries and regions of the world where the United 
States has important interests, beginning with China. I have commented 
for the past several years on China's great power aspirations and in 
particular Beijing's efforts to maximize its influence within East Asia 
relative to the U.S. This is both despite and because global strategic 
shifts unfolding since September 11 have impressed upon the Chinese the 
limits of their international influence.
    Despite Beijing's continuing skepticism of U.S. intentions in 
Central and South Asia and its concern that the United States is 
gaining regional influence at China's expense, Beijing is emphasizing 
developing a ``constructive relationship'' with us. Both before and 
since President Jiang's visit to Crawford last fall, Chinese leaders 
have been actively seeking a degree of engagement in areas of mutual 
interest, such as counterterrorism and regional security issues like 
North Korea.
    China's chosen path to long-term regional and global influence runs 
through economic growth and Chinese integration into the global 
economy. Beijing calculates that, as China's economic mass increases, 
so too will the pull of its political gravity. To date, China's 
successes have been dramatic--and disconcerting to its neighbors.
    Despite China's rapid growth, it remains vulnerable to economic 
fluctuations that could threaten political and social stability. China 
is increasingly dependent on its external sector to generate GDP 
growth. Without rapid growth, China will fall even further behind in 
job creation.
    The recent Congress of the Chinese Communist Party marked a 
leadership transition to a younger political generation but also 
created a potential division of authority at the top--and, in light of 
China's profound policy challenges, an additional leadership challenge.

        <bullet> The former party chief, Jiang Zemin, who is also 
        scheduled to hand over the presidency to his successor in both 
        positions, Hu Jintao, is determined to remain in charge. He 
        retains the chairmanship of the party's Central Military 
        Commission. The new leadership contains many Jiang loyalists 
        and proteges.
        <bullet> The ``next generation'' leaders offers policy 
        continuity, but the current setup probably guarantees tensions 
        among leaders uncertain of their own standing and anxious to 
        secure their positions.

    Such tensions may well play out on the issue of Taiwan, the matter 
of greatest volatility in U.S.-China relations. For now the situation 
appears relatively placid, but recent history shows this can change 
quickly, given the shifting perceptions and calculations on both sides.

        <bullet> Chinese leaders seem convinced that all trends are 
        moving in their favor--Taiwan is heavily invested in the 
        mainland and Chinese military might is growing.
        <bullet> From its perspective, Beijing remains wary of 
        nationalist popular sentiment on Taiwan and of our arms sales 
        to and military cooperation with Taipei.

    As for Taiwan President Chen's part, he may feel constrained by 
internal political and economic problems and by Beijing's charm 
offensive. As he approaches his reelection bid next year, Chen may 
react by reasserting Taiwan's separate identity and expanding its 
international diplomacy.
    In this regard, our greatest concern is China's military buildup. 
Last year marked new high points for unit training and weapons 
integration--all sharply focused on the Taiwan mission and on 
increasing the costs for any who might intervene in a regional Chinese 
operation. We anticipate no slowdown in the coming year.
Russia
    Moving on to Russia, Mr. Chairman, I noted last year that well 
before September 11, President Putin had moved toward deeper engagement 
with the United States. I also observed that the depth of domestic 
support for his foreign policy was unclear and that issues such as NATO 
enlargement and U.S. missile defense policies would test his resolve. 
Since then, Putin has reacted pragmatically to foreign policy 
challenges and has shown leadership in seeking common ground with the 
United States while still asserting Russia's national interests.

        <bullet> This was apparent in Russia's low-key reaction to the 
        decision to invite the Baltics into NATO and in its serious 
        attitude toward the new NATO-Russia Council, and in 
        reconsidering some of it military-technical cooperation with 
        proliferation states of concern.
        <bullet> Moscow eventually supported U.N. Security Council 
        Resolution 1441 on Iraq and has been a reliable partner in the 
        war on terrorism.

    International terrorist groups' presence and activities in and 
around Russia are influencing Russia's policies, sometimes in ways that 
complicate Moscow's relations with neighboring states. For example, the 
presence in Georgia's Pankisi Gorge of Chechen fighters and some of 
their foreign Mujahideen backers have generated new tensions in 
Russian-Georgian relations. These tensions were highlighted on the 1-
year anniversary of the September 11 attacks, when Putin threatened 
unilateral force against Georgia because he was not satisfied Tbilisi 
had, in his words, taken action to prevent Georgian-based terrorists 
from entering Russia.
    Similarly, the war in Chechnya is complicated by the continued 
influence of radical Chechen and foreign Islamists--some of whom have 
ties to al Qaeda. The takeover of the Moscow theater in October proved 
counterproductive to the terrorists' aim of forcing Russia to withdraw 
from Chechnya. Indeed, the Kremlin has turned this to its advantage by 
tying the Chechen opposition to international terrorism.

        <bullet> Meanwhile, over the past year the war in Chechnya 
        entered a new, brutal phase. Russian security service units 
        have targeted suspected guerrillas and their supporters and 
        punished their families. Chechen guerrillas, for their part, 
        continued to kill pro-Moscow officials and their families.

    Putin has no clear domestic rivals for power as he enters an 
election season that culminates in parliamentary elections in December 
and presidential elections in March 2004.
    Putin has sought to recentralize power in Moscow. He exercises 
considerable influence over both houses of parliament and the national 
electronic news media.

        <bullet> While Putin has reined in some powerful political 
        figures--a few of the governors and so-called ``oligarchs''--in 
        many cases he has negotiated a balance of interests.

    Putin still hopes to transform Russia over the long term into a 
power of global prominence, but his comments since late 2001 have 
contained more emphasis on raising the country's economic 
competitiveness. To this end, his government has set out a goal of 
narrowing the huge gap in living standards between Russians and 
Europeans and seeks to advance an ambitious structural reform program.

        <bullet> Over the past 3 years, the Russian Government has made 
        real progress on reform objectives by cutting tax and tariff 
        rates, legalizing land sales, and strengthening efforts to 
        fight money laundering.
        <bullet> Moscow has used its largely oil-driven revenue growth 
        to pay down the country's external public sector debt to a 
        moderate level of 40 percent of GDP, half the level of only a 
        few years ago.

    Such reforms are promising, but success ultimately hinges upon the 
sustained implementation of reform legislation. A risk exists that the 
government will delay critical reforms of state-owned monopolies and 
the bloated, corrupt bureaucracy--which Putin himself has highlighted 
as a major impediment--to avoid clashes with key interest groups before 
the March 2004 Presidential election. Moreover, Russia's economy 
remains heavily dependent on commodity exports, which account for 80 
percent of all Russian exports and leaves future growth vulnerable to 
external price shocks.

Iran
    We watch unfolding events in Iran with considerable interest, Mr. 
Chairman, because despite its antagonism to the United States, 
developments there hold some promise as well. Iranian reformers seeking 
to implement change have become increasingly frustrated by 
conservatives' efforts to block all innovation. We see the dueling 
factions as heading for a showdown that seems likely to determine the 
pace and direction of political change in Iran. Within the next several 
weeks a key test will come as reformers try to advance two pieces of 
legislation--bills that would reform the electoral process and 
significantly expand presidential powers--they claim will benchmark 
their ability to achieve evolutionary change within the system.

        <bullet> Some reformist legislators have threatened to resign 
        from government if conservatives block the legislation. Others 
        have argued for holding a referendum on reform if opponents 
        kill the bills.
        <bullet> Comments from the hardline camp show little 
        flexibility--and indeed some opponents of reform are pressing 
        hard to dismantle the parties that advocate political change.

    As feuding among political elites continues, demographic and 
societal pressures continue to mount. Iran's overwhelmingly young 
population--65 percent of Iran's population is under 30 years old--is 
coming of age and facing bleak economic prospects and limited social 
and political freedoms. Strikes and other peaceful labor unrest are 
increasingly common. These problems--and the establishment's 
inflexibility in responding to them--drive widespread frustration with 
the regime.

        <bullet> Weary of strife and cowed by the security forces, 
        Iranians show little eagerness to take to the streets in 
        support of change. The student protests last fall drew only 
        5,000 students out of a student population of more than 1 
        million.
        <bullet> But more and more courageous voices in Iran are 
        publicly challenging the right of the political clergy to 
        suppress the popular will--and they are gaining an audience.

    Given these developments, we take the prospect of sudden, regime 
threatening unrest seriously and continue to watch events in Iran with 
that in mind. For now, our bottom line analysis is that the Iranian 
regime is secure, but increasingly fragile. The reluctance of reformist 
leaders to take their demands for change to the street, coupled with 
the willingness of conservatives to repress dissent, keeps the 
population disengaged and maintains stability.

        <bullet> We are currently unable to identify a leader, 
        organization, or issue capable of uniting the widespread desire 
        for change into a coherent political movement that could 
        challenge the regime.
        <bullet> In addition, we see little indication of a loss of 
        nerve among the opponents of reform, who have publicly argued 
        in favor of using deadly force if necessary to crush the 
        popular demand for greater freedom.

    Although a crisis for the regime might come about if reformers were 
to abandon the government or hardliners were to initiate a broad 
suppression on leading advocates of change, the resulting disorder 
would do little to alleviate U.S. concern over Iran's international 
behavior. Conservatives already control the more aggressive aspects of 
Iranian foreign policy, such as sponsoring violent opposition to Middle 
East peace.

        <bullet> No Iranian Government, regardless of its ideological 
        leanings, is likely to willingly abandon WMD programs that are 
        seen as guaranteeing Iran's security.

South Asia
    On the Pakistan-India border, the underlying cause of tension is 
unchanged, even though India's recent military redeployment away from 
the border reduced the danger of imminent war. The cycles of tension 
between India and Pakistan are growing shorter. Pakistan continues to 
support groups that resist India's presence in Kashmir in an effort to 
bring India to the negotiating table. Indian frustration with continued 
terrorist attacks--most of which it attributes to Pakistan--causes New 
Delhi to reject any suggestion that it resume a dialogue with 
Islamabad.

        <bullet> Without progress on resolving Indian-Pakistani 
        differences, any dramatic provocation--like 2001's terrorist 
        attack on the Indian parliament by Kashmir militants--runs a 
        high risk of sparking another major military deployment.

    I also told you last year, Mr. Chairman, that the military campaign 
in Afghanistan had made great progress but that the road ahead was full 
of challenges. This is no less true today. Given what Afghanistan was 
up against at this time last year, its advances are noteworthy, with 
impressive gains on the security, political, and reconstruction fronts.

        <bullet> Milestones include establishing the Afghan Interim 
        Authority, holding the Emergency Loya Jirga in June 2002 to 
        elect a President and decide on the composition of the Afghan 
        Transitional Authority (ATA), and establishing judicial, 
        constitutional, and human rights commissions.
        <bullet> The country is relatively stable, and Kabul is a safer 
        place today than a year ago. The presence of Coalition Forces 
        has provided security sufficient for aid organizations and non-
        governmental organization's (NGO) to operate. Six battalions of 
        what will be the Afghan National Army have been trained by the 
        U.S. and coalition partners to date.
        <bullet> The Afghan Government also has made great strides in 
        the reconstruction of the beleaguered economy. More than $1 
        billion in foreign aid has helped repatriate Afghan refugees, 
        re-opened schools, and repaired roads. The ATA introduced a new 
        currency, and instituted trade and investment protocols.

    That said, daunting, complex challenges lie ahead that include 
building institutional barriers against sliding back into anarchy. 
Opposition elements, such as Taliban remnants and Hezbi-Islami and al 
Qaeda fighters, remain a threat to the Afghan Government and to 
Coalition Forces in the eastern provinces. At the same time, criminal 
activity, such as banditry and periodic factional fighting continue to 
undermine security. Sustained U.S. and international focus is essential 
to continue the progress we and the Afghans have made.

        <bullet> The Afghans will also have to decide politically 
        contentious issues such as how the new constitution will 
        address the role of Islam, the role sharia law will play in the 
        legal system, and the structure of the next Afghan Government. 
        Other major hurdles include bringing local and regional tribal 
        leaders into the national power structure.
        <bullet> Several Bonn Agreement deadlines are looming, 
        including the concerning of a constitutional Loya Jirga by 
        December 2003 (within 18 months of the establishment of the 
        ATA) and holding free and fair elections of a representative 
        national government no later than June 2004.
        <bullet> Much effort is needed to improve the living standards 
        of Afghan families, many of whom have no steady source of 
        income and lack access to clean drinking water, health care 
        facilities, and schools.

    What must be avoided at all costs is allowing Afghanistan to return 
to the internecine fighting and lawlessness of the early 1990s, which 
would recreate conditions for the rise of another fanatical movement.

Transnational Threats
    Mr. Chairman, I'd like to address now a range of key transnational 
issues that have an immediate bearing on America's national security 
and material well-being. They are complex, evolving, and have far-
reaching consequences.
    Globalization--while a net plus for the global economy--is a 
profoundly disruptive force for governments to manage. China and India, 
for example, have substantially embraced it and retooled sectors to 
harness it to national ends, although in other countries it is an 
unsought reality that simply imposes itself on society. For example, 
many of the politically and economically rigid Arab countries are 
feeling many of globalization's stresses--especially on the cultural 
front--without reaping the economic benefits.

        <bullet> Latin America's rising populism exemplifies the 
        growing backlash against globalization in countries that are 
        falling behind. Last year Brazil's President, ``Lula'' da 
        Silva, campaigned and won on an expressly anti-globalization 
        populist platform.
        <bullet> U.N. figures point out that unemployment is 
        particularly problematic in the Middle East and Africa, where 
        50 to 80 percent of those unemployed are younger than 25. Some 
        of the world's poorest and often most politically unstable 
        countries--including Afghanistan, Pakistan, Haiti, Iraq, Yemen, 
        and several nations in Sub-Saharan Africa--are among the 
        countries with the youngest populations in the world through 
        2020.

    Among the most unfortunate worldwide are those infected with HIV. 
The HIV/AIDS pandemic continues unabated, and last year more than 3 
million people died of AIDS-related causes. More than 40 million people 
are infected now, and Southern Africa has the greatest concentration of 
cases.

        <bullet> That said, the intelligence community recently 
        projected that by 2010, we may see as many as 100 million HIV-
        infected people outside Africa. China will have about 15 
        million cases and India will have 20 to 25 million--higher than 
        estimated for any country in the world.
        <bullet> The national security dimension of the virus is plain: 
        it can undermine economic growth, exacerbate social tensions, 
        diminish military preparedness, create huge social welfare 
        costs, and further weaken already beleaguered states. The virus 
        respects no border.

    But the global threat of infectious disease is broader than AIDS. 
In Sub-Saharan Africa the leading cause of death among the HIV-positive 
is tuberculosis. One-third of the globe has the tuberculosis bacillus. 
At least 300 million cases of malaria occur each year, with more than a 
million deaths. About 90 percent of these are in Sub-Saharan Africa--
and include an annual 5 percent of African children under the age of 5.
    Mr. Chairman, the world community is at risk in a number of other 
ways.

        <bullet> The 35 million refugees and internally displaced 
        persons in need of humanitarian assistance are straining 
        limited resources. Substantial aid requirements in southern 
        Africa, the Horn of Africa, Afghanistan, and North Korea, plus 
        expected needs this year in Iraq, Cote d'Ivoire, and elsewhere 
        in Africa will add up to an unprecedented demand for food and 
        other humanitarian assistance. Worldwide emergency assistance 
        needs are likely to surpass the record $8 to $10 billion donors 
        provided last year for humanitarian emergencies.
        <bullet> Food aid requirements this year will rise more sharply 
        than other categories of humanitarian assistance, particularly 
        in Sub-Saharan Africa, because of drought, instability, HIV/
        AIDS, and poor governance. Preliminary estimates put the total 
        food aid needed to meet emergency appeals and long-term food 
        aid commitments at about 12 million metric tons, 4 million tons 
        greater than estimated aid supplies.

Other Hotspots
    Mr. Chairman, Sub-Saharan Africa's chronic instability will demand 
U.S. attention. Africa's lack of democratic institutionalization 
combined with its pervasive ethnic rifts and deep corruption render 
most of the 48 countries vulnerable to crises that can be costly in 
human lives and lost economic growth. In particular, the potential is 
high for Nigeria and Kenya to suffer setbacks in the next year.

        <bullet> Growing ethnic and religious strife, rampant 
        corruption, and a weak economy will test Nigeria's democracy 
        before and after the April 2003 election. Its offshore oil 
        areas provide 9 percent of U.S. crude oil imports and are 
        insulated from most unrest, but relations with Washington could 
        rupture if yet another military regime assumes power in Nigeria 
        during a domestic upheaval.
        <bullet> After 24 years of President Moi's rule, the new 
        president and ruling coalition in Kenya face many challenges, 
        including preserving their shaky alliance while overhauling the 
        constitution. Kenyans' severe economic woes and sky-high 
        expectations for change do not bode well for the coalition's 
        stability this year.

    In addition, other failed or failing African states may lead to 
calls for the United States and other major aid donors to stabilize a 
range of desperate situations. In Zimbabwe, President Mugabe's 
mismanagement of the economy and clampdown on all political opposition 
may touch off serious unrest and refugee flows in coming months.

        <bullet> Cote d'Ivoire is collapsing, and its crash will be 
        felt throughout the region, where neighboring economies are at 
        risk from the fall-off in trade and from refugees fleeing 
        violence.

    Regarding Latin America, Mr. Chairman, Colombian President Uribe is 
off to a good start but will need to show continued improvements in 
security to maintain public support and attract investment. He is 
implementing his broad national security strategy and moving 
aggressively on the counterdrug front--with increased aerial 
eradication and close cooperation on extradition. The Armed Forces are 
gradually performing better against the FARC. Meanwhile, the 
legislature approved nearly all Uribe's measures to modernize the 
government and stabilize its finances.

        <bullet> Although Uribe's public support is strong, satisfying 
        high popular expectations for peace and prosperity will be 
        challenging. Security and socioeconomic improvements are 
        complex and expensive. The drug trade will continue to thrive 
        until Bogota can exert control over its vast countryside.
        <bullet> FARC insurgents are well-financed by drugs and 
        kidnappings, and they are increasingly using terrorism against 
        civilians and economic targets--as they demonstrated last 
        weekend in a lethal urban attack--to wear away the new national 
        will to fight back.

    Venezuela--the third largest supplier of petroleum to the United 
States--remains in mid-crisis. The standoff between Hugo Chavez and the 
political opposition appears headed toward increased political violence 
despite the end of the general strike, which is still being honored by 
oil workers.

        <bullet> Because many oil workers have returned to work, the 
        government is gradually bringing some of the oil sector back on 
        line. Nevertheless, a return to full pre-strike production 
        levels remains months. Oil production through March will 
        probably average less than 2 million barrels per day--1 million 
        barrels per day below pre-strike levels.
        <bullet> Meanwhile, Chavez, focused on crippling longtime 
        enemies in the opposition, states he will never resign and has 
        balked at requests for early elections.

    Finally, Mr. Chairman, after several years of modest progress 
toward normalization in the Balkans, the situation is beginning to 
deteriorate. Although we are unlikely to see a revival of large-scale 
fighting or ethnic cleansing, the development of democratic government 
and market economies in the region has slowed. Moreover, crime and 
corruption remain as major problems that are holding back progress.

        <bullet> International peacekeeping forces led by NATO exert a 
        stabilizing influence, but the levels of support provided by 
        the international community are declining.
        <bullet> The real danger, Mr. Chairman, is that the 
        international community will lose interest in the Balkans. If 
        so, the situation will deteriorate even further.

    Thank you, Mr. Chairman. I welcome any questions you and the 
members of the committee may have for me.

    Mr. Tenet. Mr. Chairman, I would like to conclude and 
respond to Senator Levin's comments about data and inspectors. 
I'd like to be quite formal about this.
    Chairman Warner. I want you to have that opportunity and 
what I'd like to do is give it to you immediately following the 
Admiral's statement. You will be given time to reply and I will 
comment myself.

STATEMENT OF VICE ADM. LOWELL E. JACOBY, USN, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    Admiral Jacoby. Defense intelligence today is at war on a 
global scale. We are committed in support of our military 
forces fighting in the war on terrorism in Afghanistan. We 
provide warning and intelligence support for force protection 
of our military deployed worldwide, even as they increasingly 
are targeted by terrorists. Detailed intelligence is essential 
long before forces are deployed. This detailed effort, termed 
intelligence preparation of the battlespace, has been ongoing 
for many months to support potential force deployment in Iraq.
    Other defense intelligence resources are committed to 
careful assessment of the dangerous situation on the Korean 
peninsula. Defense intelligence is also providing global 
awareness, meaning we are watching for developments that might 
require U.S. military employment. These situations range from 
internal instability and threats of coups that could require 
evacuation of American citizens to interdiction of shipments of 
materials associated with WMD. We recognize that we are 
expected to know something about everything and it is a 
daunting task for those already at war on a global scale.
    Beginning with global terrorists, despite our significant 
successes to date, terrorism remains the most immediate threat 
to U.S. interests at home and abroad. A number of terrorists 
groups, including the FARC in Colombia, various Palestinian 
organizations and Lebanese Hizbollah, have the capability to do 
us harm. I am most concerned about the al Qaeda network. It has 
a considerable amount of seasoned operatives and draws support 
from an array of legitimate and illegitimate entities. The 
network is adaptable, flexible, and extremely agile.
    At this point, sir, I defer to Director Tenet's comments 
about the al Qaeda network. We are certainly in agreement with 
his conclusions. In Iraq, Saddam Hussein seems determined to 
retain his WMD programs and become the dominant regional power. 
He recognizes the seriousness of the current situation but may 
think that he can outwit the international community by 
feigning cooperation with U.N. weapons inspectors, hiding 
proscribed weapons and activities, playing on regional and 
global anti-American sentiments, and aligning himself with the 
Palestinian cause. Saddam's penchant for brinksmanship and 
miscalculation increases the likelihood that he will continue 
to defy international will and relinquish his WMD and related 
programs.
    In North Korea, Pyongyang's open pursuit of additional 
nuclear weapons is the most serious challenge to the U.S. and 
Northeast Asia in a generation. The outcome of this situation 
will shape relations in that region for years to come. While 
North Korea's new hard-line approach is designed to drawn 
concessions from the United States, Pyongyang's desire for 
nuclear weapons reflects a long-term strategic goal that will 
not be easily abandoned.
    In the global situational awareness arena, while terrorism 
and Iraq have our immediate attention, we also must assess 
global developments to provide strategic warning on a wide 
spectrum of global threats. We continue to generate requisite 
intelligence to give our leaders opportunity to preclude, 
dissuade, deter or defeat dissuade emerging threats.
    Mr. Chairman, there are a number of other of issues that 
include weapons of mass destruction, international crime, 
instability in several key states and regions, and assessments 
with respect to Russia, China, South Korea, parts of Europe, 
Latin America, and the Middle East. These are all important. 
They are all included in my written testimony. But in the 
interest of time, I end my opening remarks here and defer these 
issues to the question and answer session. Thank you.
    [The prepared statement of Admiral Jacoby follows:]

         Prepared Statement by Vice Adm. Lowell E. Jacoby, USN

    Defense Intelligence today is at war on a global scale. We are 
committed in support of military forces fighting the war on terrorism 
in Afghanistan and other locations where war might take us. We provide 
warning and intelligence for force protection of our military deployed 
worldwide even as they increasingly are targeted by terrorists. 
Detailed intelligence is essential long before forces are deployed. 
This detailed effort, termed Intelligence Preparation of the 
Battlespace, has been ongoing for many months to support potential 
force employment in Iraq. Other Defense Intelligence resources are 
committed to careful assessment of the dangerous situation on the 
Korean Peninsula. Defense Intelligence is also providing global 
awareness, meaning we're watching for developments that might require 
U.S. military employment. These situations range from internal 
instability and threat of coups that could require evacuation of 
American citizens, to interdiction of shipments of materials associated 
with weapons of mass destruction. We recognize that we're called upon 
to ``know something about everything'' and it's a daunting task for 
those already at war on a global scale. Our sustained level of crisis 
and operational commitment is straining personnel, equipment, and 
resources, and reducing time for ``sustaining'' activities such as 
training, education, data base maintenance, and longer-term research 
and analysis. I am increasingly concerned that our Defense Intelligence 
capability is being stretched too thin and that we are being forced to 
sacrifice longer-term capabilities in order to respond to today's 
requirements.

                          NEAR TERM PRIORITIES

    Within the broader global context, my most important current 
priorities are supporting the global war on terrorism, retaining our 
readiness to support any military missions that may be assigned, Iraq, 
monitoring the North Korea situation, and maintaining the global 
situational awareness required to warn decision-makers of emerging 
crises.

Global Terrorism
    Despite our significant successes to date, terrorism remains the 
most immediate threat to U.S. interests at home and abroad. A number of 
terrorist groups--including the FARC in Colombia, various Palestinian 
organizations, and Lebanese Hizballah--have the capability to do us 
harm. But I am most concerned about the al Qaeda network.
    Al Qaeda retains a presence on six continents, with key senior 
leaders still at large. It has a corps of seasoned operatives and draws 
support from an array of legitimate and illegitimate entities. The 
network is adaptive, flexible, and arguably, more agile than we are. 
Eager to prove its capabilities in the wake of significant network 
losses, al Qaeda had its most active year in 2002--killing hundreds in 
Bali, striking a French oil tanker off the coast of Yemen, attacking 
marines and civilians in Kuwait, murdering a U.S. diplomat in Jordan, 
bombing a hotel popular with foreign tourists in Mombassa, attacking a 
synagogue in Tunisia, and attempting to down an Israeli airliner.
    Al Qaeda remains focused on attacking the U.S., but I expect 
increasing attacks against our allies--particularly in Europe--as the 
group attempts to widen its campaign of violence and undermine 
coalition resolve. I'm also very concerned about the potential for more 
attacks using portable surface-to-air missiles (SAMs) with civilian 
airliners as the key target. Al Qaeda and other terrorist groups are 
seeking to acquire chemical, biological, radiological, and nuclear 
capabilities, and we are working to prevent their use of WMD. 
Radiological Dispersal Devices (RDD) or ``dirty bombs,'' pose a 
particular problem. An RDD is simple to make, consisting of 
conventional explosives and radiological materials widely available 
from legitimate medical, academic, and industrial activities.

Iraq
    Saddam Hussein appears determined to retain his WMD and missile 
programs, reassert his authority over all of Iraq, and become the 
dominant regional power. He recognizes the seriousness of the current 
situation, but may think he can ``outwit'' the international community 
by feigning cooperation with U.N. weapons inspectors, hiding proscribed 
weapons and activities, playing on regional and global ``anti-
American'' sentiments, and aligning himself with the ``Palestinian 
cause.'' Saddam's penchant for brinksmanship and miscalculation 
increases the likelihood that he will continue to defy international 
will and refuse to relinquish his WMD and related programs. Should 
military action become necessary to disarm Saddam, he will likely 
employ a host of desperate measures.

        <bullet> Saddam's conventional military options and 
        capabilities are limited, but I expect him to preemptively 
        attack the Kurds in the north and conduct missile and terrorist 
        attacks against Israel and U.S. regional or worldwide 
        interests--perhaps using WMD and the regime's links with al 
        Qaeda.
        <bullet> He will certainly attempt to energize ``the Arab 
        street,'' calling for attacks against U.S. and allied targets 
        and encouraging actions against Arab governments that support 
        us.
        <bullet> If hostilities begin, Saddam is likely to employ a 
        ``scorched-earth'' strategy, destroying food, transportation, 
        energy, and other infrastructures, attempting to create a 
        humanitarian disaster significant enough to stop a military 
        advance. We should expect him to use WMD on his own people, to 
        exacerbate humanitarian conditions, complicate allied 
        operations, and shift world opinion away from his own 
        transgressions by blaming us.

North Korea
    Pyongyang's open pursuit of additional nuclear weapons is the most 
serious challenge to U.S. regional interests in a generation. The 
outcome of this current crisis will shape relations in Northeast Asia 
for years to come. While the North's ``new'' hard-line approach is 
designed to draw concessions from the United States, Pyongyang's desire 
for nuclear weapons reflects a long term strategic goal that will not 
be easily abandoned. Three factors complicate the issue.

        <bullet> North Korea's chronic proliferation activities are 
        troubling in their own right today, and an indication that the 
        North would be willing to market nuclear weapons in the future.
        <bullet> Development of the Taepo Dong 2 (TD-2) missile, which 
        could target parts of the U.S. with a nuclear weapon-sized 
        payload in the two-stage configuration, and has the range to 
        target all of North America if a third stage were used.
        <bullet> Pyongyang's significant military capabilities, 
        composed of large, forward deployed infantry, armor, and 
        artillery forces, a full range of WMD (including perhaps two 
        nuclear weapons), and hundreds of short- and medium-range 
        missiles, capable of striking all of South Korea and Japan. War 
        on the peninsula would be violent, destructive, and could occur 
        with very little warning.

    Pyongyang will continue its hard-line rhetoric, while moving 
forward with ``start-up'' and reprocessing activities at the Yongbyon 
nuclear facility. Kim Jong Il has a number of options for ratcheting-up 
the pressure, to include: increasing efforts to drive a wedge between 
the U.S. and other regional states; provocative actions along the 
Demilitarized Zone; increasing military training and readiness; and 
conducting large-scale military exercises or demonstrations, including 
a missile launch or nuclear weapons test.

Global Situational Awareness
    While terrorism, Iraq, and North Korea have our immediate 
attention, they are not the only challenges we face. We must assess 
global developments to provide strategic warning on a wide spectrum of 
potential threats. We continue to generate the requisite intelligence 
to give our leaders the opportunity to preclude, dissuade, deter, or 
defeat emerging threats.
                       enduring global realities
    The situations outlined above, and others we have to contend with, 
have their basis in a number of ``fundamental realities'' at work in 
the world. These are enduring--no power, circumstance, or condition is 
likely to emerge in the next decade capable of overcoming them and 
creating a less turbulent global environment. Collectively, they create 
the conditions from which threats and challenges emerge, and they 
define the context in which U.S. strategy, interests, and forces 
operate.

Reactions to U.S. Dominance
    Much of the world is increasingly apprehensive about U.S. power and 
influence. Many are concerned about the expansion, consolidation, and 
dominance of American values, ideals, culture, and institutions. 
Reactions to this sensitivity to growing ``Americanization'' can range 
from mild `chafing' on the part of our friends and allies, to fear and 
violent rejection on the part of our adversaries. We should consider 
that these perceptions, mixed with angst over perceived ``U.S. 
unilateralism'' will give rise to significant anti-American behavior.

Globalization
    The increasing global flow of money, goods, services, people, 
information, technology, and ideas remains an important influence. 
Under the right conditions, globalization can be a very positive force, 
providing the political, economic, and social context for sustained 
progress. But in those areas unable to exploit these advantages, it can 
leave large numbers of people seemingly worse off, exacerbate local and 
regional tensions, increase the prospects and capabilities for 
conflict, and empower those who would do us harm. Our greatest 
challenge may be encouraging and consolidating the positive aspects of 
globalization, while managing and containing its ``downsides.''

Uneven Economic and Demographic Growth
    The world will add another billion people over the next 10 to 15 
years, with 95 percent of that increase occurring in developing 
nations. Rapid urbanization continues--some 20-30 million of the 
world's poorest people migrate to urban areas each year. Economic 
progress in many parts of Asia, Africa, the Middle East, and Latin 
America will not keep pace with population increases. These conditions 
strain the leadership, resources, and infrastructures of developing 
states. Corrupt and ineffective governments particularly are unable to 
cope. Their actions marginalize large numbers of people, foster 
instability, spawn ethnic, religious, and cultural conflict, create 
lawless safe-havens, and increase the power of dangerous non-state 
entities. In some areas, particularly in the Middle East, rising 
unemployment among expanding youth populations, stagnant or falling 
living standards, ineffective governments, and decaying infrastructures 
create environments conducive to extremist messages.

General Technology Proliferation
    Advances in information processing, biotechnology, communications, 
materials, micro-manufacturing, and weapons development are having a 
significant impact on the way people live, think, work, organize, and 
fight. New vulnerabilities, interdependencies, and capabilities are 
being created in both advanced and less developed states. The 
globalization of ``R&D intensive'' technologies is according smaller 
countries, groups, and individuals access to capabilities previously 
limited to major powers. The integration of various advancements, and 
unanticipated applications of emerging technologies, makes it extremely 
difficult to predict the technological future. Surprises will result. 
Some aspects of our technological advantage are likely to erode.

Weapons of Mass Destruction and Missile Proliferation
    The long-term trends with respect to WMD and missile proliferation 
are bleak. States seek these capabilities for regional purposes, or to 
provide a hedge to deter or offset U.S. military superiority. 
Terrorists seek greater physical and psychological impacts. The 
perceived ``need to acquire'' is intense and, unfortunately, 
globalization provides a more amenable proliferation environment. Much 
of the technology and many of the raw materials are readily available. 
New alliances have formed, pooling resources for developing these 
capabilities, while technological advances and global economic 
conditions make it easier to transfer materiel and expertise. The basic 
sciences are widely understood, although the complex engineering tasks 
required to produce an effective weapons capability are not achieved 
easily.
    Some 25 countries possess or are actively pursuing WMD or missile 
programs. The threat to U.S. and allied interests will grow during the 
next decade.

        <bullet> Chemical and biological weapons. These are generally 
        easier to develop, hide, and deploy than nuclear weapons and 
        are more readily available. Over a dozen states have biological 
        or chemical warfare programs, including stockpiles of lethal 
        agents. The associated technologies are relatively inexpensive, 
        and have ``legitimate'' uses in the medical, pharmaceutical, 
        and agricultural industries. Detection and counter 
        proliferation are very difficult. I expect these weapons will 
        be used in a regional conflict and by a terrorist group.
        <bullet> Nuclear weapons. Iran and Iraq have active nuclear 
        programs and could have nuclear weapons within the decade. 
        North Korea is seeking additional fissile material to increase 
        its nuclear stockpile and its withdrawal from the Nuclear Non-
        Proliferation Treaty--the first state ever to do so--may prompt 
        other nations to rethink their positions on nuclear weapons. 
        India and Pakistan will increase their inventories and seek to 
        improve associated delivery systems.
        <bullet> Ballistic and cruise missiles. In addition to existing 
        Russian and Chinese capabilities, by 2015 the U.S. will likely 
        face new ICBM threats from North Korea, Iran, and possibly 
        Iraq. Meanwhile, the proliferation of theater-range ballistic 
        and cruise missiles, and associated technologies, is a growing 
        challenge. The numbers, ranges, accuracies, mobility, and 
        destructive power of these systems will increase significantly, 
        providing many states capabilities to strike targets within and 
        beyond their region.
        <bullet> Proliferation. Russia, China, and North Korea are the 
        suppliers of primary concern, but I expect an increase in 
        Pakistani and Iranian proliferation. Russia remains involved in 
        ballistic missile and nuclear programs in Iran. China has 
        provided missile assistance to Iran and Pakistan, and may be 
        connected to nuclear efforts in both states. North Korea is the 
        world's primary source of ballistic missiles and related 
        components and materials. Finally, I worry about the prospect 
        of secondary proliferation--today's technology importers 
        becoming tomorrow's exporters. Iran is beginning to provide 
        missile production technologies to Syria. Over time, Iran, like 
        North Korea today, may have the capability to export complete 
        missile systems. It is also critical for governments that are 
        not involved in proliferation to strengthen export control laws 
        and enforcement to prevent entities from proliferating 
        sensitive technologies.
        <bullet> Declining global defense spending. Global defense 
        spending has dropped 50 percent during the past decade and, 
        with the exception of some parts of Asia, is likely to remain 
        limited. This trend will have multiple impacts. First, both 
        adversaries and allies will not keep pace with the U.S. 
        military. This drives foes toward ``asymmetric options,'' 
        widens the capability gap between U.S. and allied forces, and 
        increases the demand on unique U.S. force capabilities. 
        Additional, longer-term impacts on global defense technology 
        development and on U.S.-allied defense industrial cooperation 
        and technological competitiveness are likely. Finally, defense 
        resource constraints, declining arms markets, and globalization 
        are leading to a more competitive global armaments industry. In 
        this environment, technology transfer restrictions and arms 
        embargoes will be more difficult to maintain, monitor, and 
        enforce.
        <bullet> International crime. Criminal groups in Western 
        Europe, China, Colombia, Israel, Japan, Mexico, Nigeria, and 
        Russia are broadening their global activities and are 
        increasingly involved in narcotics trafficking, alien 
        smuggling, and illicit transfers of arms and other military 
        technologies. My major concern is over the growing link between 
        terrorism and organized crime, especially the prospect that 
        organized criminal groups will use their established networks 
        to traffic in nuclear, biological, and chemical weapons, and to 
        facilitate movement of terrorist operatives.
        <bullet> Increasing numbers of people in need. A host of 
        factors--some outlined above--have combined to increase the 
        numbers of people facing deepening economic stagnation, 
        political instability, and cultural alienation. These 
        conditions provide fertile ground for extremism. Their 
        frustration is increasingly directed at the U.S. and the west.

Other Regional Issues
    There are a number of other regional situations we must monitor 
because of their potential to develop into more serious challenges.

Israeli-Palestinian Violence
    The prolonged Israeli-Palestinian conflict is furthering anti-
American sentiment, increasing the likelihood of terrorism directed at 
U.S. interests, increasing the pressure on moderate Middle East 
regimes, and carries with it the potential for wider regional conflict. 
With each side determined to break the other's will, I see no end to 
the current violence.

Tension Between India and Pakistan
    After last year's military standoff along the Line-of-Control 
(LOC), both Islamabad and Delhi took steps to defuse tensions. But with 
the Kashmir situation still unresolved and with continued cross border 
infiltration from Pakistan, the potential for miscalculation remains 
high, especially in the wake of some violent `triggering' event such as 
another spectacular terrorist attack or political assassination. Both 
sides retain large forces close to the tense LOC and continue to 
develop their WMD and missile programs. Recent elections have hardened 
India's resolve and constrain Musharraf's ability to offer additional 
concessions.

Pressures in the Muslim World
    The Islamic would is sorting through competing visions of what it 
means to be a Muslim state in the modern era. Unfavorable demographic 
and economic conditions and efforts to strike a balance between 
modernization and respect for traditional values are exacerbated by the 
global war on terrorism, continued Israeli-Palestinian violence, and 
the Iraqi situation. This fosters resentment toward the west and makes 
it difficult to define the vision of a modern Islamic state. These 
pressures will be most acute in states important to the U.S., including 
Pakistan, Afghanistan, Indonesia, Egypt, Jordan, and Saudi Arabia. Even 
in countries where Muslim populations are a minority, such as the 
Philippines, there are threats from the extremist fringe bent on the 
violent overthrow of democratic rule.

        <bullet> Pakistan. While Pakistan is making progress in its 
        return to a functioning democracy, President Musharraf faces 
        significant political and economic challenges and continued 
        opposition. Musharraf claims little influence over the Kashmiri 
        militants and other religious extremists, and Pakistan does not 
        completely control areas in the northwest where concentrations 
        of al Qaeda and Taliban remain. Popular hostility to the United 
        States is growing, driven in part by cooperation between 
        Washington and Islamabad against terrorism. Islamist opponents 
        of the current government, or religious extremists, could try 
        to instigate a political crisis through violent means. Coup or 
        assassination could result in an extremist Pakistan.
        <bullet> Afghanistan. President Karzai is making progress in 
        stabilizing the political situation, but continues to face 
        challenges from some local and regional leaders, criminals, and 
        remnant al Qaeda and Taliban elements. Assassination of 
        President Karzai would fundamentally undermine Afghan 
        stability.
        <bullet> Indonesia. President Megawati is attempting to deal 
        with serious social and economic problems and to confront 
        Islamic extremists, without undermining her support from 
        moderate Muslims. Her failure would increase the popular appeal 
        of radical elements.
        <bullet> Egypt, Jordan, Saudi Arabia. The leadership in all 
        three countries is subject to increased pressure, but each 
        probably has the capacity to contain serious unrest. However, 
        in a worst-case scenario of mass protests that threatened 
        regime control, their support for U.S. basing, overflights, and 
        the war on terrorism would likely be withdrawn.

                      OTHER MAJOR REGIONAL ACTORS

Iran
    As the recent protests in Tehran attest, Iran is a country with 
growing internal tensions. Most Iranians want an end to the clerical 
rule of the Ayatollahs. Mohammed Khatami, Iran's president, received 
the bulk of his now-waning support from minorities, youths, and women 
when he first won the elections. He is also vulnerable to being forced 
aside by the religious conservatives who have held power since 1979. 
Iran's conservatives remain in control and continue to view the U.S. 
with hostility. Iran remains the leading state-sponsor of terrorism. 
For instance, it has provided safe-haven to al Qaeda and remains the 
principal source of military supplies and financial support for 
Hizballah. For these reasons, I remain concerned with Tehran's 
deliberate military buildup.

        <bullet> Iran is pursuing the fissile material and technology 
        required to develop nuclear weapons. It uses its contract with 
        Russia for the civilian Bushehr nuclear reactor to obtain 
        sensitive dual-use technologies that directly support its 
        weapons program. If successful, Tehran will have a nuclear 
        weapon within the decade.
        <bullet> Iran has a biological warfare program and continues to 
        pursue dual-use biotechnology equipment and expertise from 
        Russian and other sources. It maintains a stockpile of chemical 
        warfare agents and may have weaponized some of them into 
        artillery shells, mortars, rockets, and aerial bombs.
        <bullet> Teheran has a relatively large ballistic missile 
        force--hundreds of Chinese CSS-8s, SCUD Bs and SCUD Cs--and is 
        likely assembling additional SCUDs in country. It is also 
        developing longer-range missiles and continues to test the 
        Shahab-3 (1,300 km range). Iran is pursing the technology to 
        develop an ICBM/space launch vehicle and could flight test that 
        capability before the end of the decade. Cooperation with 
        Russian, North Korean, and Chinese entities is critical to 
        Tehran's ultimate success.
        <bullet> Iran's navy is the most capable in the region and 
        could stem the flow of oil from the Gulf for brief periods by 
        employing a layered force of diesel-powered KILO submarines, 
        missile patrol boats, naval mines, and sea and shore-based 
        anti-ship cruise missiles. Aided by China, Iran is developing 
        potent anti-ship cruise missile capabilities and is working to 
        acquire more sophisticated naval capabilities.

Russia
    Moscow's muted reaction to NATO enlargement and the U.S. withdrawal 
from the ABM Treaty, its cooperation in the war on terrorism, and its 
acceptance of a U.S. military presence in Central Asia emphasize 
President Putin's commitment to closer integration with the west. I am 
hopeful the current cooperative atmosphere can be built upon to form a 
more positive and lasting security relationship. That said, there are 
no easy solutions to the tremendous challenges confronting Russia. I 
remain concerned about Russian proliferation of advanced military and 
WMD technologies, the security of its nuclear materials and weapons, 
the expanding global impact of Russian criminal syndicates, and 
unfavorable demographic trends.
    Meanwhile, the Russian Armed Forces continue in crisis. Moscow's 
defense expenditures are inadequate to overcome the problems associated 
with a decade of military neglect, much less fund Russia's plans for 
military reform, restructuring, and modernization. Even priority 
strategic systems have not been immune to the problems affecting the 
Russian military. The deployment of the SS-27 ICBM is now several years 
behind schedule. Overall system aging, chronic underfunding, and arms 
control agreements ensure that Russian strategic warhead totals will 
continue to decline--from approximately 4,500 operational today to a 
level near 1,500 by 2010. For at least the next several years, the 
military will continue to experience shortfalls in pay, housing, 
procurement, and training. These factors, the war in Chechnya, and 
inconsistent leadership, will undermine morale and readiness.

China
    In November 2002, the Chinese Communist Party (CCP) held its 16th 
Congress. Vice President Hu Jintao was selected as CCP General 
Secretary and Jiang Zemin was re-appointed Chairman of the Central 
Military Commission. Beijing is stressing stability during this period 
of transition and I expect few changes to China's national priorities, 
including military modernization.

        <bullet> China's total military spending will continue growing 
        at about the same rate as the economy. Beijing spent between 
        $40 and $65 billion on defense last year (about 5 percent of 
        GDP) and is content with that rate of investment.
        <bullet> Strategic force modernization is a continuing 
        priority. China is becoming less reliant on the vulnerable, 
        silo-based CSS-4 ICBM by transitioning to a mix of more 
        survivable, mobile, and solid propellant ICBMs. Three new 
        strategic missiles will likely be fielded: the road-mobile DF-
        31, an extended range DF-31 variant, and a new submarine 
        launched ballistic missile, which will deploy on a new 
        ballistic missile submarine.
        <bullet> The People's Liberation Army (PLA) will sustain its 
        focus on acquiring high-technology arms--especially air, air 
        defense, anti-submarine, anti-surface ship, reconnaissance, and 
        battle management capabilities--and will continue to emphasize 
        the professionalization of the officer corps. These elements 
        are essential to Beijing's force design concept--pursing the 
        capability to operate against a `high-technology' opponent 
        employing long-range precision strike capabilities--in other 
        words, the United States. China also is rapidly expanding its 
        conventionally-armed theater missile force, some of which can 
        target U.S. bases in the region, to provide increased leverage 
        against Taiwan and, to a lesser extent, other U.S. Asian 
        allies.

                         COPING WITH U.S. POWER

    Our opponents understand they cannot match our political, economic, 
and military power. Accordingly, they seek to avoid decisive 
engagements and act indirectly, hoping to extract a price we are 
unwilling to pay, or to present us with capabilities and situations we 
cannot react to in a timely manner. They want to fundamentally change 
the way others view the United States. This could include: undermining 
our political, economic, and social infrastructures, thwarting U.S. 
global leadership, undermining our will to remain globally engaged, and 
curtailing the global appeal of our ideas, institutions, and culture.

Threats to the Homeland
    Many adversaries believe the best way to avoid, deter, or offset 
U.S. power is to develop a capability to threaten the U.S. homeland. In 
addition to the traditional threat from strategic nuclear missiles, our 
national infrastructure is vulnerable to physical and computer attack. 
The interdependent nature of the infrastructure creates more 
vulnerability, because attacks against one sector--the electric power 
grid for instance--would impact other sectors as well. Many defense-
related critical infrastructures are vulnerable to a wide range of 
attacks, especially those that rely on commercial sector elements with 
multiple, single points of failure. Foreign states have the greatest 
attack potential (in terms of resources and capabilities), but the most 
immediate and serious threat today is from terrorists carrying out 
well-coordinated strikes against selected critical nodes. Al Qaeda has 
spoken openly of targeting the U.S. economy as a way of undermining our 
global power and uses publicly available Internet web sites to 
reconnoiter American infrastructure, utilities, and critical 
facilities.

The Intelligence Threat
    We continue to face extensive intelligence threats targeted against 
our national security policy-making apparatus, national infrastructure, 
military, and critical technologies. The open nature of our society, 
and the ease with which money, technology, information, and people move 
around the globe, make counterintelligence and security difficult. 
Sensitive business information and advanced technologies are 
increasingly at risk as both adversaries and allies conduct espionage 
against the private sector. They seek technological, financial, and 
commercial information that will provide a competitive edge in the 
global economy. Several countries continue to pose a serious challenge, 
prioritizing collection against U.S. military and technological 
developments, and diplomatic initiatives. The threat from these 
countries is sophisticated and increasing. They target our political, 
economic, military, and scientific information, and their intelligence 
services have demonstrated exceptional patience and persistence in 
pursuing priority targets.

Information Operations
    Adversaries recognize our reliance on advanced information systems 
and understand that information superiority provides the U.S. unique 
advantages. Accordingly, numerous potential foes are pursuing 
information operations capabilities as a means to undermine domestic 
and international support for U.S. actions, attack key parts of the 
U.S. national infrastructure, and preclude our information superiority. 
Information operations can involve psychological operations, physical 
attacks against key information nodes, and computer network attacks. 
These methods are relatively inexpensive, can have a disproportionate 
impact on a target, and offer some degree of anonymity. I expect this 
threat to grow significantly over the next several years.

Counter-Transformational Challenges
    For at least the next decade, adversaries who contemplate engaging 
the U.S. military will struggle to find ways to deal with overwhelming 
U.S. force advantages. They will take the time to understand how we 
operate, will attempt to identify our strengths and vulnerabilities, 
and will pursue operational and technological initiatives to counter 
key aspects of the ``American Way of War.'' They will focus extensively 
on the transformation goals that will drive U.S. military developments, 
and will pursue programs that promise affordable ``counter-
transformational'' capabilities. Accordingly, I expect our potential 
enemies will continue to emphasize the following:

        <bullet> WMD and precision weapons delivery capabilities that 
        allow effective targeting of critical theater bases of 
        operation, personnel concentrations, and key logistics 
        facilities and nodes, from the earliest stages of a campaign. 
        My expectation is that during the next decade, a number of 
        states will develop precision attack capabilities roughly 
        equivalent to what the U.S. fielded in the mid-1990s. These 
        will increasingly put our regional bases and facilities at 
        risk.
        <bullet> Counter-access capabilities designed to deny access to 
        key theaters, ports, bases, and facilities, and critical air, 
        land, and sea approaches. I am especially concerned about the 
        global availability of affordable and effective anti-surface 
        ship systems (cruise missiles, submarines, torpedoes, naval 
        mines), and a number of other long-range interdiction and area 
        denial technologies. Our adversaries will attempt to exploit 
        political, social, and military conditions in a number of host-
        nations to complicate the future overseas basing environment 
        for the U.S.
        <bullet> Counter-precision engagement capabilities focused on 
        defeating our precision intelligence and attack systems. This 
        includes the growing availability of global positioning system 
        jammers, the increased use of denial and deception (including 
        decoys, camouflage, and underground facilities), the 
        proliferation of advanced air defense systems, more mobile and 
        survivable adversary strike platforms (especially missiles), 
        and improved efforts to complicate our targeting process by 
        using ``human shields,'' or by locating other high-value assets 
        in ``no-strike areas'' (urban centers, or near hospitals, 
        schools, religious facilities, etc.).
        <bullet> Space and space-denial capabilities. Adversaries 
        recognize the importance of space and will attempt to improve 
        their access to space platforms, either indigenous or 
        commercial. Worldwide, the availability of space products and 
        services is accelerating, fueled by the proliferation of 
        advanced satellite technologies and increased cooperation among 
        states. While generally positive, these developments provide 
        unprecedented communications, reconnaissance, and targeting 
        capabilities to our adversaries.

    A number of potential foes are also developing capabilities to 
threaten U.S. space assets. Some countries already have systems, such 
as satellite laser range-finding devices and nuclear-armed ballistic 
missiles, with inherent anti-satellite capabilities. A few countries 
have programs that could result in improved space object tracking, 
electronic warfare or jamming, and kinetic or directed energy weapons. 
But these techniques are expensive and won't be widely available in the 
next 10 years. Other states and non-state entities are pursuing more 
limited, though potentially effective, approaches that don't require 
large resources or a high-tech industrial base. These tactics include 
denial and deception, signal jamming, and ground segment attack.

                            CLOSING THOUGHTS

    As I have noted above, a wide array of threats exists today and 
others are developing over time. Collectively, these challenges present 
a formidable barrier to our vision of a secure and prosperous 
international order.
    Against this backdrop, the old defense intelligence threat 
paradigm, which focused primarily on the military capabilities of a 
small set of potential adversary states, no longer addresses the entire 
threat spectrum. More importantly, the emerging threats cannot be 
dismissed as ``lesser included cases.'' In this environment, 
traditional concepts of security, threat, deterrence, intelligence, 
warning, and military superiority are not adequate. We must adapt and 
respond to these new conditions just as our enemies pursue new ways to 
diminish our overwhelming power.
    While the challenges facing us are daunting, I am enthusiastic 
about the unique opportunity we have to transform our capabilities, 
personnel, and processes to better address the changing security 
environment. The intelligence transformation process--intended to 
improve our capability to provide strategic warning, better facilitate 
effects-based campaigns, provide greater insights into adversaries' 
intentions, improve preparation of the intelligence and operational 
battlespace, and more effectively support homeland defense--will be the 
centerpiece of my tenure as Director, Defense Intelligence Agency.
    The Defense Intelligence community--composed of DIA, the Service 
Intelligence Centers, and the Combatant Command Intelligence Centers--
is working hard to develop the processes, techniques, and capabilities 
necessary to handle the current threat as well as new and emerging 
security challenges. As I said at the outset, we are at war on a global 
scale and the task is daunting. With your continued support, I am 
confident we will be able to provide our decisionmakers with the 
intelligence they need.

           STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Thank you very much. I want to discuss my 
perspective on the observations made by my colleague this 
morning, the ranking member. Then Director Tenet, we will 
listen to you further.
    The meeting that we had with the President last Wednesday, 
the senior members of the House and Senate, was followed by a 
brief meeting with Condoleeza Rice, myself, Senator Levin, and 
possibly one other, at which time Senator Levin raised these 
concerns that he has expressed this morning. It was my clear 
impression, listening to the National Security Advisor to the 
President, that all of the material that we deemed helpful to 
the inspectors had been or was in the process of being given to 
Hans Blix and to the Security Council.
    Yesterday we had the opportunity to resume that 
conversation with the director, Mr. Foley, Senator Levin, and 
myself. The four of us had a meeting for about a half hour, at 
which time the discussion resumed. Now, I do not wish to get 
into the questions of numbers and so forth, but again, it is 
clear to this Senator that while there have been comments by 
members of the administration as to their concern about the 
likelihood of the inspection process succeeding, Hans Blix 
himself has clearly said that Iraq has not been cooperative. It 
is that lack of cooperation that has been the basic predicate 
that the administration has expressed concern about, and that 
has been made eminently clear publicly.
    Now, I find two things. One, I am satisfied that this 
administration has in a conscientious way, in a timely way, 
transmitted this important information to the inspectors in the 
hopes that their task could have been more fruitful. Second, I 
find absolutely no evidence to indicate that any member of this 
administration would have used this process of submitting 
evidence to Blix in any other manner than to help and foster 
success by the inspectors. So at this time, Director Tenet, I 
think it is opportune for you to reply to me.
    Mr. Tenet. I think Senator Levin has raised a very 
important question, and we have spent a great deal of time 
assembling all the facts; and let me walk you through where we 
are. We, the American intelligence community, have had 
intelligence exchanged with the United Nations on Iraq and WMD 
in sensitive sites for over 10 years. That is an important 
point to make. There is therefore a very strong common 
understanding of sites of potential interest to inspectors, 
whether they were U.N. Special Commission (UNSCOM) inspectors 
or U.N. Monitoring, Verification, and Inspection Commission 
(UNMOVIC) inspectors or IAEA inspectors.
    When the inspections began, we drew up a list of suspect 
sites which we believe may have a continuing association with 
Iraq's WMD programs. The list is dynamic. It changes according 
to available intelligence or other information we receive. Of 
this set number of suspect sites, we identified a specific 
number as being highest interest, highest value or moderate 
value, because of recent activities suggesting ongoing WMD 
association or other intelligence information that we received.
    As I said yesterday, we have briefed all of these high 
value and moderate value sites to UNMOVIC and the IAEA. Of the 
remaining sites, of lower interest on this suspect site list, I 
had my analysts review all of them last night to see what we 
have shared with UNSCOM, with UNMOVIC, and with IAEA. We 
identified a handful, one handful of sites which may not have 
been known to the UNSCOM inspectors that we will pass to them.
    Now, the important thing to also note is that in addition 
we continue to provide additional site information to UNSCOM 
either in response to their questions on a daily basis, because 
they have their own site lists, they receive data from other 
countries, or as we continue to receive new information.
    It is important to note that our support to UNMOVIC and the 
IAEA goes well beyond the provision of information on just 
sites. We have briefed them on the Iraqi declaration. We have 
briefed them on missiles. We have briefed them on the nuclear 
program. We briefed them on biological weapons, on mobile 
biological weapons, on a whole range of subjects. Our analysts 
are in daily contact with their analysts. We take this 
seriously and professionally and that is the record as we put 
it together, sir, to try to put this in some context. Questions 
may remain.
    Chairman Warner. Fine. Do you agree with my observation, 
having listened and carefully observed and participated in 
these meetings, that we as a Nation have conscientiously given 
them everything as we have received it--as you say, it is 
continuing to come in--in such a way as to foster the ability 
of the inspectors to do their work?
    Mr. Tenet. Sir, my direction to our community and our 
people was to ``flood the zone,'' to work with these people on 
a daily basis to do everything that we can to assist their 
inspection process, and that is what we are trying to do each 
and every day.
    Chairman Warner. I find no basis by your agency or anyone 
else in this administration to impede that flow in such a way 
as to contribute to their inability to discover the evidence 
that we know as a Nation is somewhere hidden in that country. 
Am I correct in that?
    Mr. Tenet. Sir, I can tell you, I can just repeat my 
statement about what we are doing each and every day. I will 
just tell you what our motivation is, what we are trying to do, 
and that the men and women that work for us are trying to do it 
each and every day.
    Chairman Warner. Now the question is going to be 
forthcoming here with regard to whether or not in the Security 
Council there will be some suggestions to the effect that we 
double, quadruple, whatever number may be put down on the 
table, the number of inspectors in the hopes that they can have 
a greater degree of success. Do you see any evidence that this 
would lead to a more fruitful process of inspections?
    Mr. Tenet. Sir, let me say that the burden here is not on 
the inspectors. The burden here is on Iraq. Everything that 
Iraq has done since its initial date of declaration, which was 
wholly inadequate, everything that they have done to clean up 
sites before the inspectors arrive, to have Iraqi intelligence 
officers pose as scientists at sites that would be visited, to 
provide incomplete lists of scientists to be interviewed--you 
heard Secretary Powell's speech. They have done nothing here to 
live up to their obligations to facilitate an inspection 
process. The burden on the Iraqi side is as yet, to my 
professional judgment, unmet, so that is all I can say at this 
moment, sir. I haven't seen specific proposals about numbers of 
people, how long it will go, but you take the history, you take 
the fact that this is a country that essentially built a WMD 
capability while inspections were going on inside this country, 
and you take behavior that we have seen. It is frustrating, but 
the burden has to be placed where the burden belongs, on him, 
to do what he is required to do.
    Chairman Warner. If this option is pursued by which you 
quadruple the inspectors, and indeed perhaps get some U-2 
surveillance and other things, what are the risks associated 
with added time being given, and I mean significant added time, 
to the inspection process?
    Mr. Tenet. Well sir, it is my judgment that if you have a 
process perceived under the circumstances that I have just 
talked to you about, with no compliance with what is expected, 
the expectation on our part is his capabilities will continue 
to grow. His clandestine procurement networks will continue to 
operate. He will continue to hide and deceive. So I am not very 
sanguine about where we are, in terms of how he has calculated 
he can wait us out and the games that he has been playing in 
this regard. So that would be my judgment today.
    Chairman Warner. There is also the option for Iraq to allow 
quantities of the weapons of mass destruction with biological 
and chemical weapons to find their way to the international 
terrorists, am I not correct, and transported elsewhere in the 
world?
    Mr. Tenet. Sir, those are always possibilities. We have 
been very careful about the case we have made and what we have 
talked about, this poisonous network that may be operating out 
of no man's land. Certainly an individual who has been in 
Baghdad, who is supported by a group of individuals who remain 
in Baghdad and facilitate not only this network, of which there 
has been a large number of arrests in European countries, but 
also these individuals in Baghdad have their own that they may 
be pursuing, so I want to be religious and careful about the 
evidence that we have and what our concerns are. Certainly how 
chemical and biological weapons may find their way into other 
people's hands, to terrorist groups is an ongoing concern that 
we are watching very carefully.
    Chairman Warner. Yesterday the Intelligence Committee met, 
and as a member of that committee, I put a question to you and 
you gave me an answer, but I think it is important that that 
same question and answer be put in today's record. There have 
been allegations by some world leaders that they do not think 
Iraq possesses weapons of mass destruction. In the event, and 
there is no decision yet, that force must be used by this 
Nation and other nations willing to work with us, and in the 
aftermath of the battle when the world press can go in and 
examine the sites and so forth, is it your professional 
judgment that there will be clearly found caches of weapons of 
mass destruction to establish beyond a reasonable doubt that he 
had them?
    Mr. Tenet. Sir, I believe that we will. I think that when 
you listen to Secretary Powell's statement at the United 
Nations, he noted a specific intercept that told operational 
units to ensure that the word nerve agents never appeared in 
any communications. So we know that weapons have been 
subordinated to units and I believe that we will find research 
and development (R&D). We will find stockpiles of things he has 
not declared and weapons he has not declared.
    Chairman Warner. Those pictures that showed trucks moving, 
presumably, that material to other sites, those sites could be 
located?
    Mr. Tenet. Well, that is a part of this, sir, of course. It 
is a big country and the advantage is always to the hider but 
we will do everything we can if that is where we are to find 
these things.
    Chairman Warner. Admiral Jacoby, in the event that force is 
used, what do we know now about the risk of Saddam Hussein 
deploying weapons of mass destruction against forces trying to 
remove that regime?
    Admiral Jacoby. Mr. Chairman, we do not know Saddam 
Hussein's doctrine for WMD usage. We assess, however, based on 
his past patterns and availability of weapons in his inventory, 
is that he will employ them when he makes a decision that the 
regime is in jeopardy. Now, the real hard part about that is to 
identify when he might make that judgment and of course, that 
resides with one individual, his perceptions, the information 
available to him to make such a call.
    Chairman Warner. Those risks have been made known not only 
to the general public but most specifically to the men and 
women of the Armed Forces in our Nation and such other nations 
that are courageous enough to undertake the risk, should force 
be necessary. Senator Levin?
    Senator Levin. Thank you, Mr. Chairman. You agree, Mr. 
Tenet, with what Admiral Jacoby just said?
    Mr. Tenet. Yes.
    Senator Levin. I think that is a critically important 
intelligence finding as to what we expect, and your 
intelligence estimate is, Admiral, that when Saddam determines 
that his regime is in jeopardy, that is the point when he would 
utilize the weapons of mass destruction many people believe he 
still has. I want to go back to inspections, Mr. Tenet.
    You have read the letters which your agency sent me 
indicating the number of significant sites that had not yet 
been shared in terms of information with the United Nations 
inspection inspectors, is that correct?
    Mr. Tenet. Probably not all of them, sir.
    Senator Levin. The key ones?
    Mr. Tenet. I read the key one last night, I believe.
    Senator Levin. What you are indicating this morning is that 
that was in error?
    Mr. Tenet. I do not know if it was in error. I could look 
at the language.
    Senator Levin. The numbers were dramatically different than 
a handful. Will you agree to that?
    Mr. Tenet. Yes, sir. I went back last night and reviewed 
all of these numbers, reviewed all of our data, and potentially 
we made some mistakes in some of our transmissions. Yes, sir.
    Senator Levin. What is very important, it seems to me, is 
that we give full cooperation to the U.N. inspectors. Would you 
agree with that?
    Mr. Tenet. I agree, sir.
    Senator Levin. Even though you agree they are not useful 
unless Saddam cooperates, is that correct? Is it still useful 
to cooperate with the inspectors?
    Mr. Tenet. Sir, I think we have to do everything we can do 
to support them, even though they are getting no support from 
the person who is supposed to provide support.
    Senator Levin. Because even though the burden is on Saddam, 
they still might prove useful, is that correct?
    Mr. Tenet. Potentially, sir.
    Senator Levin. I just want to put that on the record, 
because of your testimony today which I welcome, and your 
testimony yesterday which was so astounding to me. I would want 
to put Mr. Tenet's testimony from yesterday in the record.
    Mr. Tenet. Sir, can I just make one comment? My assertion 
yesterday about the high value site was absolutely right and I 
make the same----
    Senator Levin. High-moderate value, yes, sir.
    Mr. Tenet. My knowledge yesterday was incomplete with 
regard to the rest of these sites. We took advantage of the 
line of questioning in our meeting to go back and get our 
people to go do all the work so I can complete that statement. 
But what I said yesterday was absolutely accurate with regard 
to high value and moderate value targets.
    Senator Levin. Without pressing this any further because 
you have acknowledged that the data which was submitted to me 
was incorrect, and we will go into that in classified session 
as to whether or not it was indeed incorrect, but nonetheless, 
I want yesterday's testimony to be put in the record.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Levin. I ask for that testimony because of the 
clear difference between what was stated yesterday and what has 
been acknowledged today.
    I want to talk to you about the value of U-2 flights. Do we 
support giving the inspectors what they have asked for in terms 
of U-2 flights?
    Mr. Tenet. Yes, sir, I believe we do.
    Senator Levin. Even though Saddam isn't cooperating?
    Mr. Tenet. Yes, sir.
    Senator Levin. He has not agreed to those U-2 flights at 
least until a couple of days ago and we have acquiesced in 
that. The United Nations, including us, has never adopted the 
resolution that Senator Clinton and I have suggested to Mr. 
Powell that the U.N. tell Saddam, it is not up to you whether 
we have useful U-2 flights. That is up to us, the United 
Nations. We are flying. You attack those U-2s and you are 
attacking the United Nations. Why shouldn't we do that?
    Mr. Tenet. Sir, I think there is an important question here 
about whether you are going to fly a U-2 and put a pilot at 
risk in an environment that is not permissive and that he has 
not agreed to and I don't think that is an insignificant 
consideration.
    Senator Levin. It is a very significant issue. The 
underlying issue is much more significant. We are going to put 
hundreds of thousands of U.S. troops at risk if we attack 
Saddam with some huge long-term consequences as well as the 
short term ones that Admiral Jacoby has outlined. That would be 
done, according to the administration, even without a U.N. 
authorized use of force. What we are suggesting is that the U-2 
flights be authorized by the U.N. When you talk to Mr. Blix, as 
I have done, he believes the chance that Saddam Hussein will 
attack a U-2 if he knows that by doing so he is attacking the 
United Nations is so slim, compared to the risks involved in 
war. For us to focus on the risk of a U-2 flight without 
Saddam's agreement rather than the importance of imposing the 
U.N.'s will on Saddam Hussein--it is incredible to me that we 
have acquiesced in Saddam Hussein's veto of U-2 flights, which 
you acknowledge will be helpful or could be helpful to the 
inspectors, based on the risk of a U-2 flight. I find that 
incredible.
    In any event, Senator Clinton and I wrote a long letter to 
Secretary Powell about this issue. It may not be necessary 
anymore to have a U.N. resolution, but if so, I would hope that 
this administration will introduce and support a U.N. 
resolution imposing the U-2 flights which will provide critical 
information, particularly about vehicles which move around on 
the ground.
    Secretary Powell pointed out that there are suspect 
vehicles on the ground. The way to track those suspect vehicles 
is with U-2 flights. You cannot do it with satellites and yet 
this administration is saying there is risk to U-2 pilots. As a 
reason not to impose the will of the world as requested by its 
inspectors on Saddam Hussein, I find that incredible. I find it 
to be a lack of support for the inspectors who have asked for 
the U-2 flights. I will give you a chance--my time is up, but 
you should have a chance to respond.
    Mr. Tenet. Sir, we are out of my realm a bit, but let me 
just say the following. When we passed Resolution 1441 there 
were a series of stipulations and obligations that dealt with 
surveillance and information flow and all these other kinds of 
things. Again, I find it from my perspective interesting that 
the burden shifts in the other direction constantly.
    Senator Levin. You misunderstand my point. I am not saying 
the burden shifts. I want to impose our will on Saddam.
    Mr. Tenet. All I am saying to you, sir, is that this is 
something that should have been acquiesced to immediately when 
we passed the resolution. It never was. I understand your 
point.
    Senator Levin. I must finish this. Of course, the 
resolution says that he is supposed to comply and he is not 
supposed to interfere with overflights, but we have 
specifically suggested a resolution identifying the 
consequences. That is not in 1441. U.N. Resolution 1441 says he 
may not interfere with inspections and with overflights, but 
what 1441 doesn't do, which the resolution we have proposed 
would do, is to say the consequence specifically of attacking a 
U-2 would be that you are attacking the United Nations. That is 
the addition to what 1441 specifically provides.
    Mr. Tenet. I understand, sir.
    Chairman Warner. I think at this point we should put in the 
record exactly what 1441 says and I quote it: ``UNMOVIC and the 
IAEA shall have free, unrestricted use and landing of fixed and 
rotary wing aircraft, including manned and unmanned 
reconnaissance vehicles.'' Now what could be more explicit? 
That is just one of a series of enumerations of what 1441 says 
Iraq must do, and it is but one of a series that he has 
steadfastly refused to do.
    Senator Levin. We have not done what we should do, which is 
to tell him: Attack a U-2, attack the world. It is important 
that we not let him veto and that we keep the world together. 
The world will be together on the U-2s. The world will be 
together. Why are we not working to keep the world together 
against Saddam Hussein?
    Chairman Warner. I think efforts are being made by this 
President and the Prime Minister of Great Britain and others to 
keep the world together but this is just one of a long litany 
of things that he is not doing, and what is the consequence? 
Senator Roberts.
    Senator Roberts. I got so caught up in listening to this 
talk of putting the tail U.N. insignia on a U-2, what would 
happen in terms of the safety of the pilot, that I am not quite 
ready here. If I may, let me see if I can get organized.
    Thank you, Mr. Chairman. We had a very productive hearing 
yesterday in the Intelligence Committee. I thank the witnesses 
for returning today to appear before the Committee on Armed 
Services. I am also the Chairman of the Subcommittee on 
Emerging Threats and Capabilities and I look forward to any 
guidance that you can continue to provide us on the appropriate 
Department of Defense (DOD) policy and planning response to the 
threats America faces.
    Yesterday I listened very carefully to these two very 
dedicated witnesses describe a world in which, and I am 
quoting, ``economic and political instability and proliferation 
and extremism combine to produce new and difficult requirements 
for America's military.'' Now, some would say that that is 
certainly not a very good situation, but I would like to stress 
this. It is good news in regards to the threat warning analysis 
and the better analytical ability that we have in all of the 13 
agencies that represent the intelligence community, in my 
personal opinion, and I have visited 6 and I will visit the 
remaining 7 along with Vice Chairman Rockefeller. I think 
through the tremendous, unequalled assets that we have and the 
dedicated work by those in these agencies, the structural 
reforms that are taking place--and we will have hearings in the 
Intelligence Committee to make sure that those happen and to 
monitor those--we have right now better real-time analysis to 
produce a better threat warning procedure to safeguard the 
American people. Now, that doesn't mean, of course, that the 
threat goes away or that we have other things that we cannot 
do.
    I would like to ask you, Director Tenet, to assess the tape 
yesterday played for all America and the world by Osama bin 
Laden, more particularly, in regards to his relationship with 
Iraq. The one thing that I would like to point out is that he 
closed that tape with a prayer which is really a lament 
indicating that his challenges are much more difficult because 
two-thirds of his operation has either been destroyed or 
captured. In some ways I think that is good, but could you 
assess that tape in regards to the situation between al Qaeda 
and Osama bin Laden?
    Mr. Tenet. Senator, our linguists and experts are going 
through all the Arabic. They were working on it last night. I 
want to be precise when I come back and talk to you about that. 
Obviously he talked about the crusaders. He tried to work 
around the Iraqi aspect. Let me take this for the record and 
when we go through the Arabic and allusions and symbols he may 
raise I will come back to the committee with a very precise 
answer in that regard.
    Senator Roberts. I have another one you can come back to. 
We are hearing a lot from the Security Council, including 
France, Russia, and China, how they claim to have not been 
persuaded by Secretary Powell's presentation. They want to 
refrain from attacking Iraq and, as has been indicated, try to 
let the inspectors continue about their business, and I am not 
opposed to inspectors with the exception that inspectors are 
not finders, they are inspectors, and what they are allowed to 
find in regards to Saddam Hussein I think is important. I'd 
like for you to get back to us, I am not sure that you can say 
so in a public setting, but please tell us how many of the 
countries that are currently on the U.N. Security Council have 
at one point provided or permitted nationals to provide arms or 
nuclear or biological technology to Saddam Hussein's government 
in Iraq. I'd like to know how many of the members of the 
Security Council supported easing the economics sanctions 
against Saddam Hussein since 1998. I'd like to know how many of 
them also participated in sanctions busting activities such as 
the commercial airline flights to Baghdad. I'd like to know how 
many of the governments that currently insist we engage in 
bilateral negotiations in North Korea were also the governments 
that insisted the only way to deal with the U.S. and Iraq was 
also through the United Nations. If you could give me that 
information in writing, I would appreciate it.
    Mr. Tenet. Yes, sir.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    Senator Roberts. Finally, Pyongyang. The chance that there 
could be an uprising on the part of the poor people is between 
slim and none, and slim left town. I asked yesterday in the 
public setting what pressure point we could put on North Korea 
in regards to direct engagement to make Kim Jong Il change his 
mind about cooperation with China, Japan, and South Korea. It 
has ominous portents in regards to Japan getting back into the 
business of remilitarizing. That goes back to 1952 and the days 
of Ike.
    It has ominous portents for our relations with China, so I 
talked with the Chinese ambassador. He said he will be a good, 
strong global partner. I have yet to see much evidence of that, 
and I am very worried about South Korea and the generation of 
people who have forgotten the aggression by North Korea. What 
pressure points could you suggest with negotiations with Kim 
Jong Il? He has to play the nuclear card, in my assessment. Any 
assessment there?
    Mr. Tenet. Sir, I will have to come back to you. We are 
sitting down with our policymakers and reviewing that. Let me 
come back to you, in fairness.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    Senator Roberts. If he has another test, sends another 
mission, he gets attention and this is the only attention 
getter he can play, similar to Pakistan or in relation to 
Pakistan, but would you think that is mainly his purpose?
    Mr. Tenet. It is one of his purposes, sir, and I indicated 
in my testimony that he is trying to draw attention in any way 
he can. He has a number of routes at his disposal to try and 
draw attention.
    Senator Roberts. My time has expired.
    Chairman Warner. Senator Kennedy.
    Senator Kennedy. Thank you very much. Mr. Chairman, I would 
ask that my opening statement be made a part of the record.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement by Senator Edward M. Kennedy

    Last February, CIA Director Tenet told Congress that al Qaeda is 
``the most immediate and serious threat'' to our country, ``despite the 
progress we have made in Afghanistan.'' Yet, this year, the CIA 
Director tells us only that ``the threat from al Qaeda remains.''
    Then, as now, Osama bin Laden was still at large and al Qaeda is 
determined to strike America again. There have been deadly new al Qaeda 
attacks worldwide. A French tanker was attacked in Yemen, a nightclub 
was bombed in Indonesia, a hotel was destroyed in Kenya, and 
missionaries murdered in Yemen. Of more than 600 people killed in acts 
of terrorism last year, 200 were in al Qaeda-related attacks, including 
19 U.S. citizens. Our Nation has just gone on new and higher alert 
because of the increased overall threat from al Qaeda. A new tape from 
Osama bin Laden has been aired. We are told that a terrorist attack 
could come very soon.
    The administration maintains that there are links between al Qaeda 
and Iraq that justify war. But al Qaeda activists are present in more 
than 60 countries, including Iran, Pakistan, and Afghanistan. Even 
within the administration, there are skeptics about the links with 
Iraq. Intelligence analysts are concerned that intelligence is being 
politicized to justify war.
    The administration refuses to call the situation on the Korean 
Peninsula what it is--a genuine crisis. It refuses to directly engage 
the North Koreans in talks to persuade North Korea to end its nuclear 
program. By ignoring the North Korean crisis in order to keep the focus 
on Iraq, many of us are deeply concerned that the administration has 
kept its eye on the wrong place.
    North Korea can quickly produce a significant amount of nuclear 
materials and even nuclear weapons for its own use or for terrorists to 
attack America and our allies. North Korea is only months away from 
producing weapons-grade plutonium and nuclear weapons. Desperate and 
strapped for cash, North Korea is the country most likely to use 
weapons-grade plutonium as its ``cash cow.'' It has already provided 
missile to nations like Iran, Syria, and Libya that support terrorists. 
Plutonium could be sold in small amounts and traded among terrorist 
groups. In the future, it could be used in nuclear weapons against us. 
If that is not a crisis, I don't know what is. Clearly, the 
administration owes us a more convincing explanation of its priorities.

    Senator Kennedy. Mr. Tenet, we have seen Americans called 
to great concern over these past days. They are being urged to 
collect 3 days' worth of water, 3 days of food, plastic 
sheeting, and duct tape. That is happening all over the 
country.
    Now, let us be cold and frank about it. Is that because of 
the danger of Iraq or is that because of the danger of al 
Qaeda?
    Mr. Tenet. This threat is directly related to al Qaeda and 
Osama bin Laden at this moment. That is what the predicate of 
raising the threat level was, specific intelligence.
    Senator Kennedy. That is the threat, I think, at least for 
Americans today. Now, when Americans ask me, given that al 
Qaeda is the threat they are being called to action for, why 
isn't the administration giving a fraction of the attention to 
the dangers that al Qaeda is presenting here at home that is 
giving to organizing a war against Iraq? How do we answer that?
    Mr. Tenet. Sir, I would not agree with that at all. I think 
that we----
    Senator Kennedy. You think the American people--let me just 
ask you the question, then. Do you think the average American 
believes that this government is as focused on what the danger 
is here at home as it is on the efforts that it is making to 
mobilize the international community and the military in order 
to engage in a war in Iraq?
    Mr. Tenet. Sir, I can only answer that from where I sit and 
what I see and do every day. I can tell you that there is on 
our part and the people we support an enormous amount of 
attention being paid to al Qaeda and this threat, every day, in 
a very considered and considerable manner.
    Senator Kennedy. Yesterday Mr. Muller reported that the al 
Qaeda network will remain for the foreseeable future the most 
imminent and serious threat facing this country. The 
organization maintains the intent to inflict significant 
casualties in the United States with little warning. Al Qaeda 
has developed a support infrastructure inside the United States 
that will allow it to mount another terrorist attack on U.S. 
soil, multiple-scale attacks against soft targets, banks, 
shopping centers, supermarkets, apartment buildings, schools, 
universities, poisoning water and water supplies. Then al Qaeda 
will probably continue to favor spectacular facts that meet 
several criteria, high symbolic value, mass casualties, severe 
damage to the U.S. economy, the maximum psychological trauma. 
Then it finally gets into Baghdad's capability and will to use 
biological, chemical, and radiological weapons against U.S. 
domestic targets in the event of a U.S. invasion. In the event 
of a U.S. invasion.
    Then it continues along: Our particular concern--this is 
the head of the Federal Bureau of Investigations (FBI)--is that 
Saddam Hussein may supply al Qaeda with biological, chemical, 
or radiological material before or during a war with the U.S. 
to avenge the fall of his regime.
    The best testimony that we have from the head of the FBI 
says that the greatest risk to American servicemen will come 
either before or during a war with Iraq or the fall of the 
regime, and Baghdad has the capability to provide biological 
and chemical weapons for use against U.S. domestic targets in 
the event of a U.S. invasion.
    Let me get back to you. You were very clear about what you 
thought was the most imminent threat to the United States. The 
President said the biggest threat is Iraq in the State of Union 
a year ago. I think most Americans believe, particularly after 
what they have heard in the very recent times, that this is 
where the administration is focused. Your reaction?
    Mr. Tenet. Senator, let me just take a few minutes because 
you raised a number of important points. Let me put this 
poisons and gas thing in some context. There are 116 people in 
jail in France, in Spain, in Italy, and in Great Britain who 
received training and guidance out of a network run by an 
individual who is sitting in Baghdad today and supported by two 
dozen of his associates. Now, that is something important for 
the American people to understand. Iraq has provided a safe 
haven and a permissive environment for these people to operate 
in.
    The other thing that is very telling to us, sir, just so I 
can close the loop on this issue, is we also know from very 
reliable information that there has been some transfer of 
training in chemical and biologicals from the Iraqis to al 
Qaeda. So we are already in this mix in a way that is very 
important for us to worry about. How far it goes, how deep it 
is is a subject that we will continue to entertain.
    Senator Kennedy. Just on that point, here we have North 
Korea that has provided technology and weapons to countries 
that are directly supporting terrorism. North Korea has 
provided items to Iran, Syria, and other countries. They may 
very well have two nuclear weapons. We do not have to get into 
that, but there is no question that they are going to be 
producing weapons-grade plutonium which can be made into 
nuclear weapons within the next few weeks.
    They have provided the weapons to nations which have 
supported terrorism. We do not need another review. We do not 
need another study. We know that they have done that. Why is 
that not a crisis? You refuse to call it a crisis. Why is that 
not a crisis? Can you give the assurance to the American people 
that it is getting as much focus and attention as the 
mobilization in terms of the military for----
    Mr. Tenet. Sir, if I can answer. It is a very serious 
problem. Admiral Jacoby yesterday called it a crisis. I called 
it a serious problem. Let us split the difference. North Korean 
behavior, their proliferation activities, their ballistic 
missile capabilities are all very serious issues. They also 
must be dealt with. Policymakers are trying to figure out an 
approach that deals with the Russians, Chinese, Japanese, and 
South Koreans. This is a very important issue.
    We are unfortunately in an environment where we have three 
or four tough things to do simultaneously. Each approach, each 
subject will be different for the policymakers. You yourself 
highlighted something that must be dealt with and that we are 
paying attention to and have to move on because it has serious 
consequences as well, sir.
    Chairman Warner. Did you have adequate time to reply to 
that in your judgment?
    Mr. Tenet. Yes, I believe I did.
    Chairman Warner. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Director Tenet, 
your testimony was that more than a third of the top al Qaeda 
leadership identified before the war has been either captured 
or killed. Obviously and unfortunately, that does not include 
Osama bin Laden. But do you believe that Osama bin Laden is 
still in active command of the al Qaeda network, or have we 
been sufficiently successful that we have disrupted his ability 
to control the network?
    Mr. Tenet. Ma'am, I'd like to talk about all of that in 
closed session with you.
    Senator Collins. You had mentioned that your analysts are 
just beginning their study of the tape that was relayed 
yesterday. Are there any preliminary indications that the tape 
was intended as a trigger or a signal to cells to attack?
    Mr. Tenet. Ma'am, I think I would say the following to you. 
You noted the previous two instances when he made tapes. On 
October 6, I said remarks were made shortly before the French 
oil tanker was attacked, Limburg, the murder of the U.S. marine 
in Kuwait and the Bali bombing. His 12 November statement was 
11 days before the bombing in the hotel in Kenya, so one of the 
things we are looking at is that he is obviously raising the 
confidence of his people. He is obviously exhorting them to do 
more. Whether this is a signal of impending attack or not is 
something we are looking at.
    I can only tell you what the history is. What he has said 
has often been followed by attacks which I think corroborates 
everything that we are seeing while raising the threat warning 
in terms of the specific information that we had at our 
disposal last week.
    Senator Collins. Yesterday there were media reports that 
our intelligence has detected the movement of Iraqi SCUD 
launcher equipment next to mosques, that Saddam Hussein has 
moved explosives to Southern Iraq near the oilfields, and that 
he has positioned some of his military forces among civilian 
areas. Do those developments suggest that if war comes that 
Saddam is going to pursue a scorched earth strategy? Do you 
believe that those developments are substantiated? If the Vice 
Admiral would like to respond, that would be fine, too.
    Admiral Jacoby. Senator, there is a pattern over a 
considerable number of years and it is being played out today. 
Saddam intermingles combatants and civilian population. It is 
part of the strategy to blend and to use the term human shields 
as part of his approaches, and that continues.
    The parts of the question having to do with current 
disposition of forces, I'd like to take on in closed session if 
I could. That way I can give you some specifics about where he 
is on some of the issues that are being presented.
    Senator Collins. That would be fine. Director Tenet, I am 
also troubled by press reports this week that the Iranian 
government intends to develop uranium mines in the southern 
part of its country. While Iranian officials have contended 
that this step has been undertaken to address civilian energy 
needs, I am concerned about the implications for Iran's nuclear 
arms program. Could you please comment on that?
    Mr. Tenet. Yes, ma'am. We are concerned as well. We are 
going to follow up on all of that reporting. We have some very 
specific data for the classified session about specifically 
where the uranium nuclear program is today. People who were 
supplying it may not be supplying it, due to some improvements 
in Russian behavior in this regard, but all of this is a piece 
and it comes back to my serious concern about how many 
countries are pursuing nuclear weapons, how many countries are 
developing an indigenous capability to do so, and the amount of 
foreign assistance that is available from foreign states and 
networks that really make this a formidable challenge when you 
lash it up to ballistic missile proliferation, whether medium- 
or long-range.
    Senator Collins. Has Iran been the impediment to the 
establishment of the new government in Afghanistan?
    Mr. Tenet. Well, I think you know that in the diplomatic 
part of this when they went to Bonn and set this government up, 
I think the record is the Iranians were helpful diplomatically 
in creating this government. I think every country on the 
border of Afghanistan naturally has its own agenda. We 
initially, in the conflict, were concerned about Iranian 
assistance for safe haven or conflict with the Taliban and al 
Qaeda remnants. So remember, you have two governments, you are 
really dealing with two faces in a country like Iran--spiritual 
leader and President Hatami--in control of different services. 
This also creates different pictures of this government's 
activity inside Afghanistan. But regarding your specific 
question, they were very cooperative in Bonn as far as I can 
tell.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. Thank you. The Senator from West Virginia.
    Senator Byrd. Thank you, Mr. Chairman. Mr. Director, a 
transcript of the Osama bin Laden tape has been available for 
at least 24 hours. Secretary of State Powell mentioned it 
yesterday morning. This Nation is at a heightened level of 
terrorist threat. We do not have the luxury of time to analyze 
the Osama bin Laden tape to death. Surely, you have completed 
at least a preliminary analysis of the tape. What conclusions 
have you drawn thus far? Please be as brief as you can because 
my time is short.
    Mr. Tenet. Sir, as I said, I believe the tape represents an 
exhortation to his followers. I believe he is trying to raise 
their confidence, and we know that previous tapes occurred 
roughly prior to attacks that have recently occurred. So the 
surface is very concerning to us, and whether there is any 
other operational signal in this tape or something we can glean 
from it, we will work on and get back to you, sir.
    Senator Byrd. Are the reports that the tape is evidence of 
a connection between Osama bin Laden and Saddam Hussein--let me 
repeat that. Are the reports that the tape is evidence of a 
present and/or past connection between Osama bin Laden and 
Saddam Hussein credible?
    Mr. Tenet. Well, sir, what he says in the tape is 
unprecedented in terms of the way he expresses solidarity with 
Baghdad. He talks about fighting alongside Iraqi socialists, 
who he has generally considered un-Islamic, to defeat the 
crusaders. The Israelis would be the crusaders, so I am trying 
to get underneath all of that to understand what the allusion 
and symbolism is. But on the surface, and that is why I want to 
be precise when I come back to you, on the surface he appears 
to be making some kind of a linkage, perhaps for his own 
purposes. Whether he is aligning himself with the Iraqi 
government or he is speaking to the Iraqi people, I just want 
to be very precise when I comment on this. But it is a bit 
alarming that he did it this way.
    Senator Byrd. How do you feel about the reference to the 
word Infidel applied to the Iraqis?
    Mr. Tenet. Well, it goes back, I think, sir to historical 
allusions that he has made about who's pure and who's not pure. 
Iraq has been a secular society. It is a distinction that 
people have tried to make, particularly in the terrorism world, 
which I don't make much of. I think these distinctions get 
blurred easily. Again I need a little bit more time to do work 
on that.
    Senator Byrd. How much more time do you need?
    Mr. Tenet. A day or two, sir.
    Senator Byrd. Who is the greatest threat in your judgment, 
Mr. Director, to the United States today? Who is the greatest 
threat looking at the situation, if you can, 2 years from now, 
3 years from now, 5 years from now? Saddam Hussein, Osama bin 
Laden, or Kim Jong Il?
    Mr. Tenet. Sir, I hope that 2 or 5 years from now al Qaeda 
is a diminished threat for this country. Obviously today we are 
worrying deeply about al Qaeda and what threat it poses to this 
country. In 2 to 5 years' time, someone like a Saddam Hussein 
may have acquired a nuclear weapon and all of his capabilities 
would be enhanced and his relationship with these terrorist 
networks would continue to develop, so they cause us concern.
    Kim Jong Il is a present threat with his ballistic missile 
and weapons capability and weapons potential. So how you rack 
them and stack them is difficult. How you deal with them in 
terms of emerging layers is difficult and of great concern to 
the intelligence community.
    Senator Byrd. Does this concern with respect to al Qaeda 
permeate the highest echelons of the current administration in 
your judgment?
    Mr. Tenet. Sir, it does.
    Senator Byrd. I wonder then out loud why this 
administration did not support amendments that I offered with 
respect to the omnibus appropriation bill that was recently 
passed by the Senate, amendments that would increase by on the 
order of $5 billion appropriations to deal with al Qaeda and 
homeland defense. I am wondering out loud. Do you have anything 
you might wonder out loud with me about why the administration 
did not support that $5 billion?
    Mr. Tenet. Sir, I rarely wonder but I really do not know.
    Senator Byrd. Now it came back to $3 billion. I got the 
same support from this administration with respect to homeland 
security. $3 billion. The administration did not support those 
amendments.
    Mr. Tenet. Sir, can I give you my observation? The 
administration has been supportive as has the Appropriations 
Committee on what we are doing in providing dollars for the 
overseas intelligence community and the FBI. I do not know 
about the domestic side, sir.
    Senator Byrd. I did not ask you about the other.
    Mr. Tenet. Yes, sir, I understand that.
    Senator Byrd. Mr. Director, in regard to Kim Jong Il, it 
seems to me that he is a threat that is as imminent, or perhaps 
more so, directly to the United States than is Iraq. So if we 
say to our friends in this world, if you are not with us, you 
are against us, I wonder if we are not sowing dragon seeds as 
we look down the road past the immediacy of Iraq. When we think 
about the nuclear threat that is posed by North Korea, we say 
to our friends in the United Nations, if you are not with us, 
you are against us. I wonder as we get down the road how we are 
going to bring about better cooperation and better union with 
respect to efforts in the United Nations as we face a more 
determined and more imminent and more powerful aggressor in the 
form of North Korea.
    I wonder if we might look at France and those others who 
are posing opposition to us today with respect to what we are 
trying to do in Iraq, if we are not going to need them down the 
road. So how can we say you are not with us, you are against 
us? It seems to me we are being somewhat careless and self-
righteous as we look ahead.
    Mr. Chairman, my time is up. To be limited to 6 minutes, 
that is not necessarily your fault, but it is not like the old 
days when we were able to follow a thread of thought to the 
end. Thank you, Mr. Director.
    Mr. Tenet. Thank you, sir.
    Chairman Warner. I say to Mr. Byrd, I take note that we 
almost have 100 percent attendance here this morning. Now that 
will conclude the first round here and at the completion of all 
recognitions we will go into the closed session. I share your 
views, Senator, but we are doing the very best we can.
    Senator Byrd. I know you are doing that.
    Chairman Warner. Thank you. The Senator from Texas.
    Senator Cornyn. In the interest of time, I will reserve any 
questions I have for the closed session.
    Chairman Warner. All right.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
Director Tenet and Admiral Jacoby. I just returned last weekend 
from Munich and talked to the German officials and other NATO 
officials, and one of the stumbling blocks for a more concerted 
effort with respect to confronting Iran is a dispute about 
whether or not there would be substantial links between Baghdad 
and terror groups. Yesterday, in your testimony, Mr. Director, 
you cited Zarqawi's presence in Baghdad, but also the press 
said he is not under their control, words to that effect, is he 
an independent envoy?
    Mr. Tenet. Sir, he is a senior al Qaeda associate who has 
met with Osama bin Laden, who has received money from al Qaeda 
leadership, and is on my list of the top 30 individuals that 
are required to decapitate and denigrate this organization. Mr. 
Zarqawi is on that list. The fact is that he is a contractor, 
he does things on his own, but he has an intimate relationship 
with Osama bin Laden and we have classified him as a senior al 
Qaeda associate.
    Senator Reed. The issue is--and I want to be clear. I 
understand your response. The issue is his relationship to 
Saddam Hussein, to Baghdad, if he is operating in concert 
explicitly with Saddam Hussein or is there for his own 
convenience and safety----
    Mr. Tenet. The argument, the specific line in evidence and 
argument we have made is they are providing safe haven to him, 
and we know this because a foreign government approached the 
Iraqis twice about Zarqawi's presence in Baghdad and he 
disappeared. The second troubling piece of this, sir, is, as I 
mentioned yesterday, the two dozen other associates and two 
senior Egyptian Islamic Jihad associates are indistinguishable 
from al Qaeda because they merged. The third piece I would say 
to you is Baghdad is not Geneva. It is inconceivable that these 
people are sitting there without the Iraqi intelligence 
service's knowledge of the fact that there is a safe haven 
being provided by people, to people who believe it is fairly 
comfortable to operate there. That is as far as I can take the 
story today.
    Senator Reed. Following up, the presence of all of these 
individuals you have cited are in Baghdad based on your 
information?
    Mr. Tenet. Yes.
    Senator Reed. Do you have any information, beyond providing 
the safe haven, as you see it, clear evidence that the Iraqi 
regime is facilitating their operations?
    Mr. Tenet. That is what we are trying to understand more 
of, sir. I will talk about this in closed session.
    Senator Reed. With respect to Osama bin Laden's statement 
yesterday, and I know you have responded to Senator Byrd in 
terms of your desire to look at it more closely, but some of 
the language I think deserves to be enclosed here with respect 
to the supposed collaboration and affiliation between al Qaeda 
and Baghdad. This is the text I have: ``On the threshold of 
this war, the war on the infidels and disbelievers which is led 
by America and its agents . . . First, the sincerity of the 
intent for the fight should be for the sake of Allah only, not 
for the victory of national minorities or for aid of the 
infidel regimes in all Arab countries, including Iraq,'' which 
seems to be a statement not of unconditional support for 
Baghdad by Saddam Hussein for his regime. In fact, he is lumped 
into the same category as we are, as an infidel.
    Mr. Tenet. Sir, you are talking about an individual who is 
a master at deception, an individual that understands all 
linkages being made all over the world about this. Let us be 
careful about placing a lot of credence on distinctions that he 
is making here. I'd like the opportunity to just be careful 
about it and look at it, but the kind of language and 
solidarity he talks about with Baghdad is something we want to 
look at more carefully inside the text.
    Senator Reed. I encourage you to do that but I think you 
have to confront this language and put it in a logical context. 
I urge you to do that. Admiral Jacoby, you are in an 
interesting position where you have access to collaboration 
with the Central Intelligence Agency and yet you provide 
specific support to the war fighters in examining targets in 
Iraq. This whole issue of how much information and what type of 
information has been disclosed to the defectors, and I asked 
you to generally comment. If we put the target list between 
developing attack issues, weapons of mass destruction sites, 
and we laid next to that the information that we are providing 
to the inspectors, would that be essentially the same list?
    Admiral Jacoby. Senator, I haven't tried to do a side by 
side comparison, but we are working from the same shared 
information on trying to develop that list so I would expect 
commonality.
    Senator Reed. Has anybody done that side by side comparison 
to essentially check the judgment of the intelligence authority 
and judgment of the military authorities for planning this 
operation?
    Admiral Jacoby. I am not sure whether it has been laid down 
that way or not, sir.
    Senator Reed. Mr. Tenet, are you aware of anybody doing 
that side by side?
    Mr. Tenet. No, sir.
    Senator Reed. Turning to North Korea, it seems increasingly 
clear that if we do nothing during the next several weeks or 
months, they will have sufficient plutonium, marketable 
quantities, and that is a shuddering concept. Are we reasonably 
confident we are beginning to identify the possible links to 
terror groups that might attempt to acquire this material, Mr. 
Tenet?
    Mr. Tenet. I do not have any specific links that I have 
developed to terror groups out of the North Korean context at 
this moment.
    Senator Reed. Are we looking hard?
    Mr. Tenet. We always do worry. We have this kind of 
capability.
    Senator Reed. I agree with you that the frightening 
potential of nuclear power is emerging. You mentioned they were 
nonstate actors in many cases. You are identifying those and is 
the presumption that our policy will be preemption of nonstate 
actors?
    Mr. Tenet. I am not making a policy prescription but we are 
working hard to identify companies, people, things that do not 
look like states. We see a number of these popping up around 
the world. That causes us concern. The policy towards Baghdad 
would be not ours, but our job first and foremost is to gather 
as much information as possible to lay down before the 
policymakers so they can make determinations.
    Chairman Warner. Thank you very much. The Senator from 
Colorado.
    Senator Allard. Thank you, Mr. Chairman. I'd like to start 
out by asking Vice Admiral Jacoby about conventional forces in 
North Korea, artillery, tanks, as well as missiles. What is 
your assessment of their capability to sustain that force in 
combat?
    Admiral Jacoby. Senator, they have the capability to 
sustain for a considerable period of time what is basically a 
very large but also not a high-tech kind of force in being. So 
armaments, weapons, ammunition, and so forth have been stored 
for considerable periods of time and they have had that kind of 
force capability for many decades.
    Senator Allard. I am going to change the questioning to 
Russia and their intercontinental ballistic missile force. Vice 
Admiral, we are aware that that force continues to age and in 
your prepared testimony, you mentioned that the SS-27 is 
several years behind schedule. Do you see a decline in the size 
of Russia's missile force in the next 10 years? Then also could 
you elaborate on how the Moscow Treaty affects the tough 
decisions that Russia may have to make in the future?
    Admiral Jacoby. Sir, our assessment is that their force 
level will decline, and the SS-27 fielding is a problem they 
are having. Sir, I need to take the treaty question for the 
record and get back to you. I am not specific on the details 
and the applications against our assessment.
    Senator Allard. If you would provide a response to me, I'd 
appreciate that.
    [The information referred to follows:]

    The Moscow Treaty gives both parties the flexibility to structure 
their strategic offensive forces as they see fit, and leaves each side 
to carry out reductions--or to modernize its forces--essentially under 
its own terms, within the treaty's stated limits (1,700-2,200 
operationally deployed strategic warheads).
    Prior to the Moscow Treaty, Russia had begun to move away from its 
traditional emphasis on land-based missiles (ICBMs) and shift resources 
to the naval leg of its strategic triad, which under START II could 
have continued to deploy MIRVed sealaunched ballistic missiles (SLBMs). 
However, since START II--which would have banned land-based MIRVs--did 
not go into effect, the Russians may now hold on to older MIRVed ICBMs, 
such as the SS-18s and SS-19s. As a result, Russia has reemphasized the 
role of land-based systems within the triad. However, we believe that 
over the next decade, the retention of aging land-based systems will 
likely come at the expense of modernization, constraining the 
production and deployment of new ICBMs such as the SS-27. In fact, the 
commander of Russia's ICBM force has publicly noted the negative impact 
that the retention of older systems will have on modernization efforts.
    We believe that for practical reasons the Russian strategic nuclear 
forces will decline over the next decade regardless of whether there 
were arms control constraints or not to a level probably below the 
treaty's warhead limits. Therefore, it is more likely that Russia is 
looking to the Moscow Treaty as a means of constraining U.S. strategic 
forces, rather than as a planning tool for its own force development.

    Mr. Tenet, a number of weeks back, Condoleezza Rice said we 
are expecting compliance with eliminating weapons of mass 
destruction. I think she cited three countries. Most 
frequently, it says South Africa opened their country up for 
inspection. Ukraine and Kazakhstan are also mentioned. I got 
the impression from her comments that all three of those 
countries were markedly different than what we are facing in 
Iraq.
    I was wondering if you could lay out for the committee the 
differences between what you saw happening in those three 
countries and what has happened in Iraq in some fairly explicit 
terms?
    Mr. Tenet. I apologize, Senator, but I do not have the 
explicit details of those places right on the tip of my tongue. 
I will come back with a piece of paper.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    Senator Allard. I did not mean to broadside you on that.
    Mr. Tenet. That is all right.
    Senator Allard. Mr. Chairman, I have questions for closed 
session so I will yield back the balance of my time.
    Chairman Warner. Senator Akaka.
    Senator Akaka. Mr. Tenet, in your written testimony, you 
mentioned that Libya is developing weapons of mass destruction 
and that since 1999, Libya has increased, and I quote, ``its 
access to dual-use nuclear technologies.'' My question to you 
is do you have any assessment about how long it will be before 
Libya has a nuclear weapon, and can you share that assessment 
with us now?
    Mr. Tenet. Sir, we can do that in closed session.
    Senator Akaka. Director Tenet, I have heard about recent 
public diplomatic differences with European allies. Have these 
differences with European allies had an effect on their 
cooperation with us or us with them in efforts to fight 
terrorism? Specifically, are we withholding useful intelligence 
from them or vice versa, or other types of cooperation?
    Mr. Tenet. No, sir. In fact, in the war on terror, our 
European allies have been extremely supportive of what we are 
doing. We work hand in glove with them. This whole network that 
I alluded to is something that we have worked very closely on 
with them, so the level of intelligence services, military 
services, law enforcement relationships, they are all very 
good. I know there are other issues, but it has not impacted 
our work on terrorism with them one bit. In fact, all of that 
is quite enhanced.
    Senator Akaka. Admiral Jacoby stated, Director Tenet, that 
he expects an increase in Pakistani and Iranian proliferation. 
Do you share that concern and can you indicate at all in public 
session the direction of Pakistani and Iranian proliferation 
efforts?
    Mr. Tenet. Sir, I apologize but we should talk about this 
in closed session. I apologize for that answer. It is more 
appropriate there.
    Senator Akaka. Admiral Jacoby, yesterday the Senate Foreign 
Relations Committee held an open hearing on the post-war 
situation in Iraq. I have pursued a post-war Iraqi plan that I 
feel we should have. My question to you is what is your 
assessment concerning the attitude the post-war Iraqi military 
would have towards Israel?
    Admiral Jacoby. Sir, I think what we are going to find, and 
now I mean particularly in the assessment, I think what we are 
going to find is that the Iraqi military is separated from the 
regime's positions and policies. We might find that they feel 
very differently about the situations in the region than the 
present regime. But sir, that is something to be discovered 
down the road, I think.
    Senator Akaka. Do you envision that the United States would 
be able to construct an Iraqi military capable of meeting 
Iraq's legitimate defense needs, which will not still harbor 
anti-Israeli feelings?
    Admiral Jacoby. Our assessment is that we will be able to 
work to construct an Iraqi military sufficient to meet their 
defensive needs. On the political orientation, sir, I think 
that is still something to be determined as we work through 
this.
    Senator Akaka. In reading your statement, I share your 
concern about general technology proliferation and I want to 
commend the work done by DIA's futures division. I know that 
getting ahead of the curve is becoming harder and yet more 
critical. As you mentioned in your testimony, our technological 
advantage is going to erode and the long-term trends concerning 
WMD and missile proliferation are bleak. It is important that 
senior policymakers, especially those involved in formulating 
our strategies for military transformation, utilize assessments 
by groups like DIA's futures division. Is there a process to 
ensure that this takes place? Has Secretary Rumsfeld been 
briefed by the futures division?
    Admiral Jacoby. Yes, sir. Our futures division work gets to 
him regularly. My promise to you, sir, is even in this period 
of challenges between the stresses of the current situations 
and the need for predictive assessments in the future, we have 
fenced off the futures divisions and I am making every effort 
to strengthen that effort, which is predictive. It is future 
threat, warning, avoidance of surprise is an area where we need 
to increase investment. We are very aware of that, sir, and it 
is a focused area for me.
    Senator Akaka. Thank you very much for your response.
    Chairman Warner. Thank you, Senator.
    Senator Talent.
    Senator Talent. I think I am going to reserve for the 
closed session.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman. I 
thank the directors for being here today. My first question for 
Director Tenet is one that perhaps you will want to address 
during the closed and classified session. I understand that the 
IAEA will issue a report later this month on the nuclear 
program for Iran. Do you have an opinion based on the 
information that is available now on how long it would take 
Iran to develop a nuclear program on a par with, let us say, 
North Korea's nuclear program? I ask you first if you have an 
opinion on that. If you do, you probably want to express it in 
the closed session.
    Mr. Tenet. Yes, sir. It is incorporated into my classified 
statement.
    Senator Ben Nelson. Inspectors from the IAEA were expelled 
from North Korea last fall as we all know and shortly 
thereafter, North Korea withdrew from the NPT. Assuming that 
these inspectors are not expelled from Iran, for example, we 
would still have some international monitoring of Iran's 
nuclear program as a signatory of the NPT, but as we have 
learned from the North Korean case, monitoring requires a 
permissive environment. In North Korea's case they did not want 
to fully reveal the extent of their nuclear program. This 
committee, of course, as well as the Intelligence Committee, 
has discussed with you and others in the administration the 
importance of human intelligence but also the importance of 
proper funding for satellite and other technological 
intelligence capabilities.
    With the proliferation of nuclear technology and the number 
of nuclear powers or would-be powers and want-to-be powers 
growing every day, it is important that decision makers have 
reliable intelligence. Are you satisfied with the level of 
funding provided in the fiscal year 2004 budget for this 
purpose?
    Mr. Tenet. Sir, going back to last year when the President 
submitted the 5-year defense program and the intelligence fund, 
we have experienced very important growth to sustain our 
collection capabilities. I think Admiral Jacoby and I would 
tell you we are carefully discussing how to enhance these 
capabilities with the Secretary of Defense. We talked about 
this a bit yesterday in the Intelligence Committee, the issue 
of global coverage and the coverage of all the things people 
would expect us to have knowledge about or information about is 
a daunting challenge for us. But nevertheless, the Secretary 
and I are working through this very carefully, and we are very 
pleased with the level of resources we have been provided going 
forward.
    We may come back for more, but we want to do that in a 
considered way so that when we talk to you about this there is 
some programmatic content to it.
    Senator Ben Nelson. Thank you. Vice Admiral Jacoby, I met 
yesterday with Defense Minister Ramirez from Colombia to 
discuss the war on terrorism and other transnational threats, 
specifically drug trafficking, that we are continuing to 
encounter. You mention in your written testimony that terrorism 
in general and principally the threat posed by al Qaeda is the 
most important priority of the DIA.
    My question concerns the FARC and Colombia. The Colombian 
government maintains that the Irish Republican Army and the 
Basque separatist groups from Spain have ties to the FARC and 
argues therefore that their internal conflict has wider 
ramifications for the war on terrorism. What intelligence do 
you have through the DIA that would link these terrorist groups 
together, if you can speak about it in open session?
    Admiral Jacoby. I can speak to it in closed session, sir. I 
would add that the concern with the FARC is a very real one for 
us with the official U.S. presence in Colombia. Obviously we 
have a responsibility for information flow to the State 
Department and our Marine guards and so forth as part of the 
diplomatic presence, too. The worrisome part for us was that 
for many years, the FARC excluded the U.S. from their target 
list. Recently they have changed their statements, although 
they have not yet executed attacks specifically directed 
against U.S. official presence here. That is a concern for us.
    So we are worried about a changing situation in Colombia 
and it is getting attention from us at the appropriate level.
    Senator Ben Nelson. Do you have the access to the kind of 
information you need to help us be informed on the basis of 
intelligence that is reliable, credible, and helpful?
    Admiral Jacoby. We have insights. Do we have access that 
makes me comfortable that we have the situation well assessed 
in the land? No, sir.
    Senator Ben Nelson. That is probably not because of any 
reluctance to share, it is because of the ability to access it.
    Admiral Jacoby. It is certainly not a problem with sharing 
it. It is the level of detailed specificity, time and place 
kind of threat information for a country that is as large as 
Colombia that is a major issue for them.
    Chairman Warner. Thank you very much.
    Senator Dayton.
    Senator Dayton. I want to thank both of you for your 
extraordinary service to our country at this critical time. 
Director Tenet, I would agree with your testimony that the 
burden of proof is entirely on Saddam Hussein and I believe as 
you said that we would find if we were able to make a complete 
inspection that those caches of chemical and biological 
materials the President outlined in his State of the Union 
Address are largely still there; and those constitute 
violations of the U.N. sanctions, as the Secretary of State 
evidenced last week with what has been detected to date.
    The United States has confronted dangerous dictators with 
weapons of mass destruction for 55 years since World War II and 
the essence of the critique you made today against Saddam 
Hussein could be applied to Nikita Khrushchev and other leaders 
of the former Soviet Union in years past, making linkages with 
anti-U.S. and anti-west operatives around the world, and to 
Chinese leaders in decades past and even North Korea today. 
Vice Admiral, you have stated the most serious threat to the 
U.S. regional interests in a generation but the United States 
has not launched preemptive strikes to eliminate those threats. 
Those threats remain serious and ongoing, even increasing.
    Those countries have leaders which we distrusted, yet no 
democratic President acted to remove them or disarm them, and 
the primary reason I believe was that doctrine of mutually-
assured destruction, that an attack by the United States would 
result in an assured destruction of our cities, our 
countryside, our social networks, and civilian casualties that 
would be unforeseeable in number.
    So when I read reports of the last week that our threat 
level has been increased and read what Director Muller 
predicted yesterday, that a U.S. attack would result in 
retaliatory attacks against the United States within our 
borders, I ask myself why would we expect otherwise? Why 
wouldn't we expect that Saddam Hussein would retaliate, as we 
would if we were attacked those years past by the Soviet Union 
or some other enemy, and with as much destruction in this 
country, within our borders as possible?
    To what extent do you assess that as an ongoing threat and 
is it factored in to the decision to proceed militarily against 
Iraq? Why is Iraq different? If we do proceed with military 
action against Iraq, why is Iraq different from North Korea 
today, from all the threats in the years past?
    Mr. Tenet. You are asking intelligence and policy 
questions. I will give you my view in any event. The 
interesting thing about Iraq, of course, is that Iraq, even 
though its army is a third of the size it was 10 or 11 years 
ago, it is still larger than all the Gulf Cooperation Council 
(GCC) countries and Arab nations combined. The difference with 
Iraq, one difference you have to remember is that in the last 
15 years he has crossed two borders twice. Of concern to us 
just from an intelligence persuasion----
    Senator Dayton. When did those occur?
    Mr. Tenet. You had Kuwait, the Iran-Iraq war----
    Senator Dayton. In the last 12 years?
    Mr. Tenet. 15 years.
    Senator Dayton. In the last 12 years?
    Mr. Tenet. Sir, I will provide it for the record. I had 15 
years in my mind.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    The other thing is that he is going to get a nuclear weapon 
sooner or later. Our estimate is that with fissile material he 
could have it within a year or 2. He will enhance his ballistic 
missile capability with that material; and his biological 
weapons capability is far bigger than it was at the time of the 
Gulf War and he has chemical weapons capability that he hasn't 
declared. So you put that in the context of a region that is a 
little bit different from what you look at in North Korea, 
because you go to South Korea with a large diplomatic presence 
and the Chinese and South Korea that are different in terms of 
their strength and overall stature than the countries he faces 
in this region.
    At the end of the day, you have to make a determination 
about how to best deal with this problem. At the end of the 
day, you have to ask yourself whether, after 10 or 12 years of 
dealing with process, he has fundamentally complied with it. 
Whether you wake up in 3 or 4 years and face the prospect of 
the issues that I walked through. Those are valid and important 
issues for people to debate. All we can do is lay down the 
facts of what the concerns are.
    Senator Dayton. My time is limited so let me just go on. 
Today's Washington Post reported on your remarks yesterday, 
your testimony as ``signaling that the Bush administration has 
concluded that without enforcement the era in which countries 
were encouraged by treaties and self-regulation to avoid 
developing nuclear weapons may be coming to an end. Such a 
conclusion would buttress the new national security doctrine 
which suggests strikes against nuclear powers and nuclear 
defenses.'' Is that, in your view, the policy we are entering 
into, preemptive strikes against potential nuclear powers?
    Mr. Tenet. When I wrote the statement, I had no policy in 
mind other than to attempt to say to you--I did not talk about 
policies yesterday. I basically said that my concern was that 
the Nonproliferation Treaty regime was being battered in a way 
that continues to undermine a foundation that we have used for 
many years. Given my concern that proliferation will loom 
larger, do we have the right regime in place? What should it be 
replaced with? How active should we become?
    Those are policy questions I would have to answer but I was 
reflecting on my look at the world and the concerns I have.
    Senator Dayton. One last question, please. Regarding the 
Iraq-al Qaeda connection. I would agree with what I understood 
your assertion being, that the evidence of a linkage you have 
presented here has increased, but it seems to have increased 
since the administration announced that it intended to go to 
war. Prior to last October, the reports I have received--and I 
have sat in quite a number of briefings--those connections were 
far more tenuous than the one that you presented today, that 
the enemy of my enemy is my friend. It doesn't surprise me that 
Saddam Hussein has been reaching out in the last months to as 
many prospective allies as he could possibly find in the face 
of possible U.S. invasion, and it is not surprising that Osama 
bin Laden would seize on this crisis to exploit it to advance 
his anti-U.S. and anti-Israel agenda.
    That is the reality we have today based on your reports, 
whether we like it or not. It seems to increase the specter or 
likelihood that an attack is going to be portrayed as an attack 
against Arab nations, and as you said, that we are going to see 
the kind of retaliations that we saw on September 11, as part 
of their effort to foment this rebellion against what they view 
as the infidel.
    Mr. Tenet. Let me just comment on one of your points. This 
is an iterative business and very dynamic from the way it 
changes. If you go back and look at my testimony to this 
committee, I think in October, when we talked about WMD, when 
you look at the classified terrorism section, it mentioned 
Zarqawi, it mentioned Egyptian Islamic Jihad operatives. What 
has happened is an explosion in our knowledge and understanding 
and depth, additional sources, people we have at our disposal 
working with our European allies.
    This thing moves every day. It is very dynamic. But you 
said something that I have to push back on, because we do not 
cook the case for anybody to make a policy. We never do that. 
We would never do that. We would never allow it. I would never 
allow it.
    Senator Dayton. I wasn't implying that, sir. What I 
understood it to be was the amount of contacts, the degree of 
connection between those two entities, it has increased in the 
last few months compared to what they were prior to, say, 
October of last year.
    Mr. Tenet. We have provided some interesting papers to the 
committee about contacts that go back to the Sudanese time 
period in the mid-1990s and an extensive paper on all of this. 
It is a tough issue that you are constantly trying to connect 
the dots on, and in the terrorism environment remember, 
everybody can connect the dots. There are lots of dots here 
that people have to be careful to connect in the right way and 
be quite dispassionate about how you portray it. But this is a 
serious issue and we have to be very mindful of it.
    Senator Dayton. I credit you, in both these appearances and 
those classified briefings, for being as forthright, candid, 
and giving up the information and knowledge you say that is a 
constantly shifting set of information.
    Chairman Warner. Thank you Senator.
    Senator Bayh.
    Senator Bayh. Gentlemen, I have 6 minutes and six questions 
so I am going to move expeditiously. If I could ask you to do 
the same, I would appreciate it. Admiral, I hope you won't take 
it personally that most of my inquiries are for the Director. 
My first question, Director, is I know we have finite resources 
and there is debate today about how many crises we can handle 
well simultaneously. My direct question to you is, is there 
anything that we could do to combat al Qaeda or to apprehend or 
kill Osama bin Laden that we are not doing because of the 
current focus on Iraq?
    Mr. Tenet. No, sir.
    Senator Bayh. I want to follow up on a question that was 
asked, I think by Senator Akaka, with regard to cooperation 
from Germany, France, Belgium, or some of the countries that we 
have a difference of opinion with Iraq. I understood your 
answer to be that there has been no undermining of the 
intelligence cooperation with those countries and that that has 
not undermined our efforts to combat terrorism. Is that 
correct?
    Mr. Tenet. That is correct, Senator.
    Senator Bayh. With regard to Iraq and the potential action, 
there have been concerns expressed that this action will lead 
to additional recruits for al Qaeda or other potential 
terrorist organizations. Obviously that is a concern. You never 
want to do anything to create a more fertile field for the 
creation of extremists who might turn against the United 
States. My understanding has been that a lack of manpower has 
not been their problem, that there has been no shortage of 
operatives to carry out attacks. There have been other things 
that have constrained their attacks on the United States. Is 
that a correct view?
    Mr. Tenet. Sir, they train thousands of people in their 
camps in Afghanistan. Manpower isn't the issue. Brain power, 
money, lots of foot soldiers willing to volunteer, tens of 
thousands of people who are trained in those camps. So it is 
not a manpower question as much as the other issues.
    Senator Bayh. That is not an element that leads to few or 
potential attacks to the country, the lack of manpower?
    Mr. Tenet. No, sir.
    Senator Bayh. With regard to Iraq and al Qaeda--you might 
not be able to answer this in open session. There have been 
press reports to the effect that there have been al Qaeda 
sympathizers in our country. There have been press reports to 
the effect that there have been Iraqi operatives in our 
country. I won't ask you about all that. I am just curious, as 
Senator Byrd and others have mentioned, about the alarm in the 
country today. What level of assurance do we have? Have you 
identified all these folks? What is the probability that there 
are some out there, we just do not know they are here?
    Mr. Tenet. In terms of terrorists?
    Senator Bayh. Iraqi agents or al Qaeda operatives.
    Mr. Tenet. I can't give you a guarantee that Bob Muller and 
I have identified everybody in this country who may be 
affiliated with a terrorist organization. All I can give you is 
my certain knowledge that over the last 14 months we are better 
off than we were in terms of our knowledge and operations and 
sharing of data. So I can't give you that assurance, sir.
    Senator Bayh. I appreciate your giving it the best shot 
that you can.
    Chairman Warner. Senator, we will provide the transcript 
for you of yesterday's intelligence hearing, at which time the 
Director of the Federal Bureau of Investigations addressed that 
question.
    Senator Bayh. Two final questions. Again, this one I 
understand might be more appropriate for the closed hearing, 
but there have been a lot of public reports to the effect that 
North Korea probably has a nuclear device already. What kind of 
probability do you think exists that they currently have a 
nuclear device?
    Mr. Tenet. I think we have unclassified the fact that they 
probably have one or two plutonium-based devices today.
    Senator Bayh. Probably. Between 50 and 100? Where would you 
put that?
    Mr. Tenet. I think one or two is a very good judgment.
    Senator Bayh. How about if they fired missiles over Japan? 
What is the likelihood they have a missile currently capable of 
hitting the United States?
    Mr. Tenet. I think the declassified answer is yes, they 
could do that.
    Senator Bayh. They have the ability to deliver nuclear 
warheads to the west coast of the United States. Obviously that 
is very troubling.
    My final question is an attempt to look beyond the horizon 
a little bit at other threats. It was raised by Senator Nelson. 
That is the issue of the FARC.
    There have been troubling things recently--the bombing in 
downtown Bogota. Our increased involvement there is not just 
against the war on drugs. It is to battle the insurgency. 
People move from Colombia into and out of the United States 
very frequently. I was at a conference on Colombia in December 
where an individual indicated he had met with FARC officials 
who had U.S. passports. So you combine urban bombings, the fact 
that they are beginning to focus on us as a direct adversary, 
and a significant flow back and forth between the United States 
and FARC operatives in this country. Am I justified in being 
worried about this threat, thinking that looking down the road 
this is something that could come home here to the heartland in 
a very direct way?
    Mr. Tenet. Sir, I actually asked that question this morning 
because we had a discussion about Colombia. There is an 
excellent question about whether you extend that to here. The 
question was regarding specific targeting at specific 
facilities. The FARC is taking it to the urban environment. 
Obviously you see the health club, that they really touched a 
vulnerable point.
    Senator Bayh. I am concerned about what could happen down 
the road, if you game this out this could come home.
    Mr. Tenet. Let me come back to you with an answer.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    Chairman Warner. Director Tenet, do you wish to refine your 
reply to that very important question regarding the North 
Korean delivery system and probability of a warhead, whether 
those systems are capable? I think it is an important statement 
for the record.
    Mr. Tenet. Sir, let me let it stand where it is until we--
yes, sir. Let me leave it stand where it is. I do not want to 
give classified information.
    Chairman Warner. Senator Clinton.
    Senator Clinton. Thank you. I want to thank you for the 
hard work that your teams are doing. I just have several 
questions that have not been addressed yet. In his State of the 
Union, President Bush proposed a Terrorist Threat Integration 
Center, a central location, as I understand it, where all 
foreign and domestically generated terrorist threat information 
and intelligence would be gathered, assessed, and coordinated. 
As I further understand it, it would include elements from the 
CIA, the FBI, the new Department of Homeland Security, and the 
Department of Defense, but that the director would report to 
the Director of Central Intelligence. So far, is that a correct 
description?
    Mr. Tenet. Yes, ma'am.
    Senator Clinton. One of the difficulties that I still see 
us struggling with is the coordination between national 
agencies and sources of information with State and local law 
enforcement officials. I am particularly concerned not only 
about what goes down but what comes up. The fact is that our 
front line defenders with respect to any terrorist attacks here 
on our own shores are local law enforcement personnel. What 
steps are being taken as you design this department to ensure 
first that our local law enforcement officials will receive the 
information they need in a both timely and thorough enough 
manner; and second, that you will be receiving information?
    As I just think about it, this is an overwhelming task, and 
I have to say clearly here in this committee that we are 
focused on the external and international emerging threats and 
their connections with what goes on here at home, but I really 
do believe we have not given adequate support to our local law 
enforcement first responders. We must have an intelligence and 
information gathering system that works far better than it ever 
used to in the past. Frankly, there were lots of conflicts as 
to what information would or would not be shared. So where are 
we in planning that, Mr. Tenet?
    Mr. Tenet. It would be good if Director Muller were here 
but I will tell you what I know.
    Senator Clinton. You will be the overall director?
    Mr. Tenet. This is an analytical component and essentially 
what we want to do is get all the threat information together, 
much as we did this morning, that has law enforcement and 
intelligence feeds so it is all seamless to make sure we have 
the right terrorist tracking database in one place that is 
available to State and local governments, to police forces. 
What we collect overseas, what we can hand over. The other 
thing that we think we have to do a heck of a lot more, if you 
put your finger on something, is give State and local police 
departments texture and understanding of what they look for, 
how they use their intelligence divisions, how they use the 
officer on the beat.
    This is a daunting challenge. This is something that the 
Director of the FBI is taking on because of his rather direct 
relationship to what we are trying to do in creating this kind 
of integrated analytical center. There are lots of things that 
we can pass. For example, we have an excellent relationship 
with the New York City Police Department and the Washington 
police. Obviously New York and Washington are special places, 
but we need to be able to pass to Milwaukee and Seattle and 
every place else in this country texture, understanding, 
context. You do not have to give up sources and methods for 
this human operator, but you need to give those men and women 
the opportunity to find out what we are looking for when we go 
to orange.
    There is an enormous amount of data we have started to push 
out the door about chemical and biological attacks, what to 
look for and how to protect Americans from them. One of our 
objectives is to have a place where we can push this out to law 
enforcement. The FBI can be at the proper front end, where we 
can have officials understand what the threat is without 
developing very much.
    Senator Clinton. This is an issue that concerns me greatly 
and I look forward to continuing to receive updates on how this 
is occurring. Second, last month the British Broadcasting 
Corporation (BBC) reported that British officials believe al 
Qaeda successfully built a crude radiological device, commonly 
referred to as a dirty bomb, in Afghanistan. What intelligence 
do we have regarding the veracity of this report from British 
intelligence? Admiral Jacoby, if you have additional insight 
into this I would appreciate hearing it.
    Mr. Tenet. I would say that BBC and British intelligence 
may be two separate entities. We know they had a keen interest 
in developing a radiological device, and our whole thought 
process analytically and operationally is to prove the 
negative, that you did not get one or you did not get a nuclear 
weapon. I have never seen any reporting that suggests they 
successfully tested a radiological device from any source, our 
own, or British, I have never seen our reporting. I can check 
but I have never seen it, Senator.
    Senator Clinton. You agree with that, Admiral Jacoby?
    Admiral Jacoby. Yes. We have found nothing in our 
investigations of Afghanistan.
    Senator Clinton. The leader of Hamas, who has carried out 
numerous bombings in Israel, released an open letter that said 
Muslims should threaten western interests and strike them 
anywhere. This is a very new development as I understand the 
history of Hamas, which has primarily been focused on fighting 
the Israeli government and the Israeli people. To what extent 
does Hamas pose a direct threat now to Americans both here and 
abroad?
    Mr. Tenet. Well, you are quite correct about where their 
targeting has been focused on but I would have to go back and 
talk to Bob Muller about what he perceives this threat to be 
here. The way you are isolating it is exactly right. All of 
these groups, a group like Hamas in particular operates in a 
constrained geographic region where they have comparative 
advantages but obviously the concern would be how they migrate 
those here. I will come back to that.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    Chairman Warner. Senator Pryor.
    Senator Pryor. I have just a couple of quick questions 
about al Qaeda and Director Tenet, I would like to direct those 
to you if possible. My first is a follow-up on Senator Bayh's 
very good questioning about al Qaeda and their capabilities and 
the manpower that they have. You mentioned that there were two 
facts. One is that we have disabled, if I could use that term, 
a lot of their leadership, and also, second, that they trained 
potentially thousands of troops, if you can call them that, or 
thousands of foot soldiers or believers, whatever you want to 
say, in Afghanistan and other places around the world.
    Is al Qaeda at the present time growing?
    Mr. Tenet. Well, I think that the most important point I 
would make is because you have taken the sanctuary away and the 
ability to train an unlimited capability and unlimited resource 
for impunity, you hurt the ability of the organization to grow. 
There is no doubt about that, to train and deploy people. 
Whether people are motivated by the message and are comfortable 
with them or--is a different category, but I would say once we 
took the sanctuary away and we put them on the run and put them 
at greater risk, we jeopardized their ability to grow with 
trained operatives.
    Senator Pryor. Do they have a new sanctuary?
    Mr. Tenet. Nothing that rivals what we once saw in 
Afghanistan. None. What we are trying to do is find where they 
may migrate to in the same kind of mass and scope.
    Senator Pryor. Is it your perception that as some 
leadership is removed from the picture, other leadership is 
developing?
    Mr. Tenet. Well, that is--I'd like to talk about that in 
closed session, Senator.
    Senator Pryor. The last thing I have on al Qaeda is we hear 
a lot about it. For years, really, but certainly after 
September 11, there is not an American today that doesn't know 
a little something about it, and I assume that in your view, it 
would be categorized as the most dangerous terrorist 
organization with regard to America's national security.
    Mr. Tenet. It is the most dangerous terrorist organization 
that has attacked the United States but I will tell you that 
Hezbollah is an organization of capability, of worldwide 
presence, that is an equal if not far more capable 
organization, if you can believe that. It is a very capable 
organization.
    Senator Pryor. That was my question. What is number two?
    Mr. Tenet. I would say Hezbollah. I actually think they are 
a notch above in terms of the relationship with the Iranians. 
The training they received puts them in a state-sponsor 
supported category with a potential for lethality that is quite 
great.
    Senator Pryor. I assume they are organized a little 
differently than al Qaeda but it sounds like they are also kind 
of a loose-knit organization out there. Do they have a safe 
haven?
    Admiral Jacoby. Actually, Hezbollah is much tighter, much 
more structured, much more organized in sort of a traditional 
sense, whereas al Qaeda is a loose network and I might add that 
one of the things, in your first question about numbers, we 
certainly learned in the U.S.S. Cole attack was that there were 
a few al Qaeda operatives that ran the operation but they drew 
from this larger group of Mujaheddin who they had fought with 
previously, who are not sworn to al Qaeda, who did not have 
allegiance. So when we get into discussions about relative 
numbers, the training camps are gone but the people who would 
share beliefs and join up for a specific operation are yet 
another aspect of this whole problem.
    Senator Pryor. Does Hezbollah have a primary training 
facility, or training region, or safe haven, as we talked about 
it before?
    Mr. Tenet. Southern Lebanon is a place of great concern 
obviously.
    Senator Pryor. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Byrd. Mr. Chairman, Senator Pryor has a little of 
his 6 minutes left.
    Chairman Warner. Senator, if you ask for a minute or 2, 
Senator Levin and I are prepared to grant that.
    Senator Byrd. I'd like to reserve on that. He is asking 
about training of al Qaeda.
    Chairman Warner. If you wish to follow up.
    Senator Byrd. I wonder if al Qaeda has any training camp or 
camps in this country? I seem to remember--and I do not have 
today's newspaper report in front of me--something that is 
attributed to you to the extent that there are al Qaeda 
training camps in this country. Am I right or wrong?
    Mr. Tenet. No, sir. I don't believe you are correct. Not 
attributed to me. No, sir. I don't believe the Director of the 
FBI would say we have ever found anything like that in this 
country.
    Senator Byrd. So there is nothing that you know about?
    Mr. Tenet. Nothing that I know about, sir.
    Chairman Warner. Senator Byrd, do you wish to conclude? 
Then we will go to our executive session in SH-219.
    Senator Byrd. I take this opportunity to align myself with 
a high-ranking member in his remarks. I think I subscribe to 
those remarks 100 percent. The Director has said more than once 
that the burden is upon Iraq and not on the inspectors. This 
response has come in answer to a question as to the efficacy of 
having more inspectors in Iraq. There are some nations that are 
advocating that we increase the number of inspectors and I 
believe I heard the Director say that in response to that 
proposal that the burden is not on the inspectors but on Iraq. 
Am I correct in having heard you say that?
    Mr. Tenet. Yes, sir, I believe I said that.
    Senator Byrd. Is it not true, Mr. Director, that if the 
inspectors are increased this would increase the problems for 
Saddam Hussein in his attempts to deceive the inspectors and 
deceive the United Nations? Would it not also provide 
additional information to the people of the world and to the 
people of this country who are about to send their sons and 
daughters into Iraq? Would it not serve some good purposes, 
even though somewhat of the burden may be, if we use a 
political answer and a rhetorical answer, yes the burden is on 
Saddam Hussein, not on the inspectors? But would it not provide 
some additional information to the people? Would it not make it 
more difficult for Saddam Hussein to continue in his course of 
deception?
    Mr. Tenet. Sir, I doubt it. I would respectfully disagree. 
I think that his practices and the way he has organized 
himself, the very elaborate regime that he has in place, I am 
doubtful that it would make much of a difference.
    Senator Byrd. It seems to me that common sense reasoning, 
and I don't claim to have all of the common sense on my side, 
but it seems to me that common sense reasoning would indicate 
that the more inspectors that are put in, it is going to 
increase the burden upon Saddam Hussein.
    But aside from that, I think we also have a burden. I think 
there is not only a burden on the inspectors and on Saddam 
Hussein, but I think this country has a burden, a burden to 
attempt to do whatever it possibly can do, particularly at this 
junction, to avoid war. Wars kill people. It seems to me we 
have a burden. This country has a burden to bend over backwards 
and it has done some of that already, but it seems to me more 
so, I think when we talk about the burden being not on the 
inspector but on Iraq, we should see our own burden that we 
bear before the country and the judgment of history. We need to 
do everything we possibly can to avoid war.
    Now, having said that, let me congratulate you, Mr. 
Director, on your work. I read the book Bush at War by Bob 
Woodward, and as I read that book, I came to believe that you 
were virtually the central hero.
    Mr. Tenet. Do not believe everything you read, Senator.
    Senator Byrd. I don't, not everything I hear either in 
response to questioning. But you performed admirably in that 
book, if I may say. With respect to the defeat of the Taliban, 
and whatever is true about that book, I want to compliment you 
on.
    I only have one other question, Mr. Chairman. Let me just 
ask it this way. The Director has on more than one occasion 
this morning said that he has not had time to analyze the 
recent information that has come to light on Osama bin Laden 
and he has indicated he might need another day or so. Might we 
have another hearing when the Director has had time to analyze 
this information? Might we have another hearing? I think the 
American people are entitled to know what his responses to 
those questions are.
    Chairman Warner. Our colleague makes another point. May I 
suggest we take the interim step of analyzing the submissions 
from the Director of Intelligence and then in consultation with 
our ranking member and yourself and others, we will take that 
into consideration.
    Senator Byrd. Fair enough. I thank my chairman. He is so 
accommodating and responsive. I think we have a burden to 
inform the American people and it is not any fault of the 
chairman or the ranking member, but I think we have been 
delinquent in our duty as a Congress to ask questions and to 
inform the American people as we are about to take this very 
critical step we see looming just ahead. I think this committee 
has a responsibility to do everything that it can. So does our 
Appropriations Committee.
    I do not think we as a Congress have fully fulfilled our 
responsibility to the American people.
    Chairman Warner. I think our distinguished colleague would 
recognize just in the past few days a number of hearings have 
been held one at the Foreign Relations Committee yesterday, and 
Senator Levin and I participated with members of the 
Intelligence Committee today. I think the consultation between 
the administration and Congress, and I have urged to reach the 
highest obtainable highwater mark of any President; I believe 
we are reaching that.
    Senator Levin, you had a comment that you wished to make.
    Senator Levin. A very quick question and comment. It 
relates to this issue of where the Director said we are not 
worried about the number of foot soldiers out there in the 
terrorist movement. Let me tell you, I am and Admiral Jacoby 
apparently is.
    Mr. Tenet. I did not mean to imply it, Senator. Let me 
correct the record then.
    Senator Levin. I want to read you what Admiral Jacoby said 
and let me see if you agree with that. This is in today's 
written testimony, and it says so much. I wish you would have 
time to read this paragraph. ``Much of the world is 
increasingly apprehensive about U.S. power and influence. Many 
are concerned about the expansion, consolidation, and dominance 
of American values, ideals, culture, and institutions. 
Reactions to this sensitivity to growing `Americanization' can 
range from mild `chafing' on the part of our friends and allies 
to fear and violent rejection on the part of our adversaries. 
We should consider that these perceptions, mixed with angst 
over perceived U.S. unilateralism, will give rise to 
significant anti-American behavior.'' Do you agree with the 
Admiral?
    Mr. Tenet. I'd like to think about it.
    Senator Levin. I would like to put in the record, Mr. 
Chairman, an article from The Washington Post of Friday, 
February 7. There are two quotes in particular. One, ``Senior 
U.S. officials said that, although the Iraqi government is 
aware of Zarqawi's group's activity it does not operate, 
control, or sponsor it.'' Second, the paragraph which says, 
``Senior administration officials said that, although Zarqawi 
has ties to Osama bin Laden's group, he is not under al Qaeda 
control or direction. `They have common goals,' one 
intelligence analyst said, but he [Zarqawi] is outside Osama 
bin Laden's circle. He is not sworn al Qaeda.''
    Because the time has run today and because the Director did 
comment on both of those yesterday at the Intelligence 
Committee, I would ask that in addition to these quotes from 
this article being made part of the record, that the testimony 
of the Director commenting on those quotes from yesterday's 
Intelligence Committee hearing also be made part of the record.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. We will now reconvene in SH-219 in 
executive session.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                             SCOTT SPEICHER

    1. Senator Bill Nelson. Director Tenet, Captain Scott Speicher's 
status is of great concern to me. I want to ensure that as events 
unfold in Iraq that he is not forgotten and that the U.S. intelligence 
community is doing all it can to find out more information about his 
location and his condition. I appreciate your past assistance on this 
matter and look forward to continuing to work with you in the future. 
Is there new information on the status of Captain Scott Speicher?
    Director Tenet. We defer to DIA on the status of the investigation 
of Captain Speicher.

    2. Senator Bill Nelson. Director Tenet, are regional intelligence 
agencies in the Middle East cooperating with U.S. efforts to resolve 
Captain Speicher's status?
    Director Tenet. We defer to DIA on the status of the investigation 
of Captain Speicher.

                     AL QAEDA ELEMENTS IN PAKISTAN

    3. Senator Bill Nelson. Director Tenet, I am greatly concerned with 
escalating combat operations in Afghanistan by U.S. troops. I am 
especially concerned with the fact that al Qaeda and Taliban elements 
may be using Western Pakistan as a staging area or safe haven for 
operations against U.S. forces and the Karzai government. Are elements 
of Pakistan's security or defense forces allowing (or tolerating) al 
Qaeda or the Taliban to use Western Pakistan as a ``safe haven'' from 
which to launch operations against American forces in Afghanistan?
    Director Tenet. [Deleted.]

                       AL QAEDA ELEMENTS IN IRAQ

    4. Senator Bill Nelson. Director Tenet, a portion of Secretary 
Powell's presentation to the U.N. dealt with the ties between Iraq and 
al Qaeda. One particular training camp was identified in northeastern 
Iraq. In addition, officials of the Patriotic Union of Kurdistan (PUK) 
say that they informed U.S. officials of an al Qaeda presence in 
September 2001. Where exactly is this camp located, Saddam-controlled 
territory, Kurd-controlled territory, or perhaps some other ambiguous 
location like a no-fly zone?
    Director Tenet. [Deleted.]

    5. Senator Bill Nelson. Director Tenet, how many such camps exist 
in the region? Do they not pose a threat to U.S. security?
    Director Tenet. [Deleted.]

    6. Senator Bill Nelson. Director Tenet, how long has the 
administration been aware of this presence in northeastern Iraq? Why 
haven't we taken direct military action against that group?
    Director Tenet. [Deleted.]

                     CHINESE MILITARY MODERNIZATION

    7. Senator Bill Nelson. Vice Admiral Jacoby, press reports indicate 
that China has increased its defense budget significantly in the last 2 
years. They are on a glide path to significant modernization that may 
threaten U.S. military superiority in the not too distant future. How 
would you assess the impact of Chinese military modernization, 
especially their naval, air defense, and anti-ship missile 
modernization, on regional stability and future U.S. relations?
    Admiral Jacoby. China has underway an ambitious military 
modernization program aimed at improving key elements of both its 
conventional and its strategic forces. Its primary focus is on 
improving the ability of the People's Liberation Army (PLA) to fight 
short-duration, high-intensity conflicts along or near China's 
periphery. This modernization program also is aimed at deterring or 
countering U.S. military intervention in the Asia-Pacific region. To 
this end, the PLA is acquiring modern surface combatants and 
submarines, surface-to-air missile systems, fourth-generation fighters, 
supersonic anti-ship cruise missiles and naval air defense systems, and 
a new generation of ground force equipment. As a result, within the 
decade, China's overall capacity to threaten other countries in the 
region, as well as U.S. military forces in the region, will increase. 
For example:

        <bullet> China has begun to deploy indigenous SONG and Russian-
        built KILO diesel attack submarines and is developing a new 
        nuclear-powered submarine class.
        <bullet> China is improving significantly its passive air and 
        missile defenses.
        <bullet> China is procuring and developing cruise missiles 
        capable of being launched from aircraft and land, as well as 
        submarines and surface ships.

    These programs and other enhancements to the PLA's overall fighting 
capability potentially could contribute to instability in the Asia-
Pacific region and challenge Sino-Americans relations, should Beijing 
opt to use military force to resolve its numerous disputed territorial 
claims or to achieve regional preeminence, one of China's strategic 
objectives.

                                COLOMBIA

    8. Senator Bill Nelson. Director Tenet, I am concerned with the 
growing level of violence in Colombia and the potential for instability 
there to spread to other nations in the region. What are the threats to 
stability and democratization posed by the spread of both narcotics 
production and insurgency in the South America?
    Director Tenet. [Deleted.]

    9. Senator Bill Nelson. Director Tenet, specifically, how is the 
threat of terrorism evolving in Colombia in light of the recent Bogota 
nightclub bombing?
    Director Tenet. [Deleted.]

    10. Senator Bill Nelson. Director Tenet, do you expect the FARC or 
other groups to begin directly targeting American citizens in Colombia 
or elsewhere in South America?
    Director Tenet. [Deleted.]

    [Whereupon, at 12:09 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
